<html>
<title> - UNDERSTANDING DYSLEXIA: THE INTERSECTION OF SCIENTIFIC RESEARCH AND EDUCATION</title>
<body><pre>[Senate Hearing 114-759]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-759

  UNDERSTANDING DYSLEXIA: THE INTERSECTION OF SCIENTIFIC RESEARCH AND 
                               EDUCATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING UNDERSTANDING DYSLEXIA, FOCUSING ON THE INTERSECTION OF 
                   SCIENTIFIC RESEARCH AND EDUCATION

                               __________

                              MAY 10, 2016

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-729 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  




















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             PATTY MURRAY, Washington
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                  ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                 AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska               MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                  SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina            TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                 CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                  ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director

                                  (ii)

  






















                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, MAY 10, 2016

                                                                   Page

                           Committee Members

Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana, 
  opening statement..............................................     1
Mikulski, Hon Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     4
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    43
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    45
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    47
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    48

                               Witnesses

Shaywitz, Sally, M.D., Co-Director, Yale Center For Dyslexia and 
  Creativity, Yale University School of Medicine, New Haven, CT..     7
    Prepared statement...........................................     8
Baraka, Ameer, Author/Actor, Terrytown, LA.......................    16
    Prepared statement...........................................    18
Eden, Guinevere, D. Phil., Director, Center for the Study of 
  Learning, Georgetown University Medical Center, Washington, DC.    19
    Prepared statement...........................................    21
Boies, David, Chairman, Boies, Schiller, and Flexner, LLP, 
  Armonk, NY.....................................................    24
    Prepared statement...........................................    25
Mahone, Mark, Ph.D., ABPP, Director, Department of 
  Neuropsychology, Kennedy Krieger Institute, Baltimore, MD......    27
    Prepared statement...........................................    29
Hanrath, April, Parent, Salt Lake City, UT.......................    36
    Prepared statement...........................................    38

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    Response to questions of Senator Sanders by:
        David Boies..............................................    57
        Mark Mahone, Ph.D., ABPP.................................    58
        April Hanrath............................................    60
    Response to questions of Senator Casey by Guinevere Eden, 
      D.Phil.....................................................    62

                                 (iii) 
 
  UNDERSTANDING DYSLEXIA: THE INTERSECTION OF SCIENTIFIC RESEARCH AND 
                               EDUCATION

                              ----------                              


                         TUESDAY, MAY 10, 2016

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Bill Cassidy 
presiding.
    Present: Senators Cassidy, Mikulski, Burr, Scott, Casey, 
Bennet, Murphy, and Warren.

                  Opening Statement of Senator Cassidy

    Senator Cassidy. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order. Welcome to all. 
Thank you for being here.
    Let me remark that Senator Bennett's funeral is this 
morning. So we've lost some of our colleagues who will be 
attending the funeral. Senator Hatch, who asked that I would 
note that he's going to be in Utah attending former Senator 
Bennett's funeral and wished he could be here and regrets that 
he cannot be here to introduce Ms. Hanrath. Under the 
circumstances, we understand.
    This morning, we're having a hearing titled Understanding 
Dyslexia: The Intersection of Scientific Research & Education 
that, hopefully, will raise awareness and educate us on 
dyslexia, highlighting the importance of early identification 
of students with dyslexia, and ensuring that such students have 
access to evidence-based resources.
    Senator Mikulski and I will each make an opening statement, 
and then introduce our panel of witnesses. Each panelist will 
have 5 minutes to summarize your testimony. We have a timer in 
front of you. Green light is go, yellow means you have 1 minute 
left, and red means I'm going to start pounding with my gavel. 
After our witnesses' testimony, Senators will each have 5 
minutes to ask questions.
    I am pleased to chair this hearing, and, again, I thank 
Senator Mikulski for co-chairing. I also thank my other 
colleagues who were in support of having this hearing.
    We're discussing dyslexia, an issue very important to me, 
both as the parent of a dyslexic child and as a Senator. We 
have a great lineup of witnesses, including those who have 
personally addressed dyslexia.
    Ameer Baraka, who is a friend, will speak about growing up 
with unrecognized dyslexia, without resources, but overcoming 
and eventually becoming an actor; David Boies, who overcame 
dyslexia, entering the most language-based of all professions, 
law; and Ms. Hanrath will speak of her daughter, who has been 
quite successful, but from the mother's perspective. Thank you, 
Ms. Hanrath.
    There's a common thread in each family's testimony: a child 
who struggles to read and cannot. Often, the parent was 
dyslexic, too, and they relate. But a child frustrated by their 
inability to read, if a boy, acts out. If it's a girl, she 
becomes shy, embarrassed to read aloud in class. Afraid of 
being mocked. Think about the teacher who has that bright child 
struggling to read, but does not have the training or resources 
to help that child become the better student and achieve their 
fuller potential.
    In October of last year, Senator Mikulski and I sponsored 
and the Senate passed a resolution that defined dyslexia as a, 
``unexpected difficulty in reading, highlighted by a gap 
between the individual's intelligence and their reading 
level.'' It's the bright child who doesn't read commensurate 
with their brightness. Put simply, in non-dyslexics, IQ and 
reading tend to track along the same line. In dyslexics, IQ is 
higher, and reading ability is lower.
    Dyslexia is the most common learning disability, many will 
mention. According to NIH sponsored research, nearly 20 percent 
of us have dyslexia, whether you're watching on TV, in this 
room, in Congress, in your workplace. It's from all walks of 
life. The impact of dyslexia on an individual, a family, a 
school, and our society is tremendous.
    What if I told you that by effectively addressing dyslexia, 
we could further prison reform by identifying students with 
dyslexia and providing science-based interventions? Or that we 
could get more bang from our Federal investments in education? 
Or that we could reach into the classroom and change the 
interaction between a dyslexic student and a frustrated teacher 
to a relationship between a learning, productive student and a 
fulfilled teacher?
    The goals of this hearing are simple: to raise awareness of 
the scope and scale of dyslexia; to increase awareness of what 
precisely dyslexia is, as defined by science; and to highlight 
the importance of early identification of those who are 
dyslexic and giving these children the necessary evidence-based 
resources needed to succeed in school and beyond.
    There are great schools for children with dyslexia, almost 
all of which are private, and if you can't afford the $10,000 
to $50,000 a year, a family's options are limited. If the 
family is less wealthy, quite likely, they cannot afford to 
have their child's needs met. Perhaps that's the one thing that 
should be taken from this hearing. There's a correlation 
between your ability to have your child's needs accommodated 
and your wealth, and that's not good.
    We've heard testimony from Governors, superintendents, and 
other school administrators that screening for dyslexia is not 
happening. Your child may be dyslexic, and it may not be 
discovered, despite the fact that we'll hear from Dr. Shaywitz 
that the achievement gap between a dyslexic and a typical 
reader is evident as early as first grade, and the gap 
continues into adolescence.
    There are three public charter schools in the Nation that 
specializes in teaching dyslexics. I'm proud to say two are in 
Louisiana, the Louisiana Key Academy in Baton Rouge and the Max 
Charter School in Thibodaux. Parents choose to send their child 
to these schools, the goal being for the child to transition to 
a traditional public school as their reading difficulty is 
addressed.
    There are also colleges that accommodate for students with 
dyslexia. Nicholls State University has the Louisiana Center 
for Dyslexia and Related Learning Disorders. I think Senator 
Alexander has a school in his State of Tennessee.
    I mentioned about how addressing dyslexia can greatly 
impact the rates of incarceration. We know that many who are 
incarcerated are functionally illiterate. A study at the Texas 
State Prison in Huntsville found that 80 percent of prison 
inmates were functionally illiterate and 48 percent dyslexic.
    The prevalence of dyslexia is 20 percent in the general 
population and 48 percent in the incarcerated population. If 
appropriate science-based strategies to teach and treat 
dyslexia are instituted, the effect on our future prison 
population could be profound.
    Let me say, with all of this, there's been progress. Last 
year, Senator Mikulski and I sponsored a bipartisan Senate 
resolution which passed that calls on Congress, schools, and 
State and local educational agencies to recognize the 
significant educational implications of dyslexia that must be 
addressed. It also designated October 2015 as the National 
Dyslexia Awareness Month. We will reintroduce this resolution 
this year.
    Representative Lamar Smith's Research Excellence and 
Advancements in Dyslexia Act, or the READ Act, ensures the 
National Science Foundation has dedicated funding for dyslexia 
research, and this past Congress was signed into law. The Every 
Student Succeeds Act creates a dyslexia-focused comprehensive 
center providing evidence-based resources for identifying 
students struggling with reading and the appropriate 
interventions to States, school districts, teachers, and 
parents.
    Last, the U.S. Department of Education's Office of Special 
Education and Rehabilitative Services issued a Dear Colleague 
letter that specifically clarifies that nothing in Federal law 
prohibits the use of the word, dyslexia, in evaluation, 
eligibility determinations, and an individualized education 
program, or IEP, for students. Anecdotally, however, State and 
local educational agencies are still reluctant to specifically 
reference the word, dyslexia, denying dyslexics the specific 
services they need to succeed.
    I hope these efforts are the first of many steps in the 
right direction. We've made great progress in the area of 
learning disabilities. We've seen that conditions like autism 
and dyslexia can be specifically diagnosed and that there are 
science-based interventions. We must continue efforts that all 
learning disabilities have the same science-based intervention.
    If there's a call to action in this hearing, it's that 
science should begin driving policy. We have the dots. Now 
let's connect them.
    I will now yield to Senator Mikulski for her opening 
statement.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Senator Cassidy. I'm 
delighted to co-chair this hearing with you on this very 
important issue of dyslexia. It's important to both you and I, 
it's important to the Congress, and it's surely important to 
the Nation. I would like to thank Senator Alexander, the 
Chairman, and the Ranking Member, Senator Murray, for allowing 
us to hold this hearing today and to focus on dyslexia and the 
understanding of it and the intersection of scientific research 
and education.
    This is a very interesting hearing at many different 
levels. First of all, we're co-chairing. That, in and of 
itself, is very different, and the fact is that we see each 
other as, really, not a Democrat or a Republican, but we see 
each other as advocates for children and children who need 
special attention, and then what type of special education they 
need.
    The second thing is that within the realm of Congress and 
the prickly atmosphere we sometimes find with each other, we 
would be regarded as an odd couple, because Senator Cassidy and 
I come from different parts of the country, we come from 
different political parties, and, occasionally, on our votes, 
even different political philosophies. Again, in this room, in 
this committee, we are focusing on the needs of children, and 
that doesn't know politics. It doesn't know the lines that 
separate us or divide us. Senator Cassidy is a physician. I'm a 
social worker. We bring those kinds of attitudes and skills to 
this table.
    We look forward to hearing from our witnesses, and you 
should know that this will be a hearing where we really want to 
engage in a conversation with you on how we can best help these 
children that are facing these challenges. This won't be a 
harass and a harangue hearing. This will be an informational 
dialog, and I look forward to doing this.
    I regard each and every one of you as experts at the table 
who come from very esteemed academic centers of excellence, 
Yale, Georgetown, Hopkins, Kennedy Krieger. There are other 
great centers of learning, and they're called the streets and 
neighborhoods where kids grow up, because as they face 
challenges, their education comes from the street.
    The first teacher and the first learning center is in the 
home, and that's why it's so important that we hear from a 
parent who has actually lived these issues and tried to cope 
with the issues as well as how to get the best plan and the 
best opportunity. All of you are experts in different ways.
    We expect a lot from our teachers, and I would like to 
salute our teachers. As we worked so hard on the Elementary and 
Secondary Education and No Child Left Behind and now our latest 
version of that, we believe that every problem could be solved 
if we had a highly qualified teacher in the classroom. We need 
highly qualified teachers in the classroom. There's no doubt 
about it. When a child walks into that classroom, the child 
brings a lot. They bring a lot from the home, their family 
history, their social situation, and so on. We expect a lot of 
our teacher, but the teacher should begin to expect some things 
of the larger community.
    I support the schools with children who are trying to do 
the famous individual education plans. I forget how all those 
acronyms come together. The fact is this. You can have the best 
plan, but unless you can operationalize that plan, what does it 
mean? Because of the very nature of the unfunded mandate, where 
we only pay 10 percent of special education funding, and then 
we argue over title II and how we can even provide additional 
training for our teachers, school systems are hard pressed to 
have that individual education plan and to be able to 
operationalize it.
    Today is not a day to talk about budgets. Today is a day to 
talk about children and science. But I do bring to your 
attention that special education is an unfunded Federal 
mandate, and we need to come to grips with that, and we need to 
come to grips with it across party lines, because I think one 
area that we could agree upon is that we should fund that and 
meet our obligation so that States and then local school 
systems could do what we told them to do. I urge my colleagues 
to think about that as part of an action plan.
    Today is about dyslexia, a lifelong condition that affects 
the way the brain processes written and spoken language. It's 
considered the most important learning disability. I know that 
Senator Cassidy has gone into a lot of the information and a 
lot of the data that I won't say again.
    The recent report from the National Center for Learning 
Disabilities highlights the many challenges our country faces 
when trying to meet the needs with dyslexia and other learning 
disabilities. These challenges include a lack of awareness and 
understanding among educators and even healthcare 
professionals, a lack of teacher training when they're in 
schools learning how to be teachers and then in the mentorship, 
and then a lack of scientifically based reading interventions 
and a lack of resources to accommodate it.
    Today, I want to listen to the experts, those that are from 
officially designated learning centers, but also those that 
have been in the streets and neighborhoods and lived the life 
of being challenged by dyslexia, those who have been a mother 
trying to be on the phone, trying to be in the chat room, and 
trying to do everything that she could to make sure that her 
daughter had a fair shot at following her dreams and her 
passions.
    I want to thank you for your consistent leadership and I 
look forward to hearing this testimony.
    Senator Cassidy. I'll now defer to Senator Murphy to 
introduce Dr. Shaywitz.
    Senator Murphy. Thank you very much. I'm eager to get to 
the testimony as well. I may have to step out to another 
hearing and come back. I'm very excited to introduce the expert 
of experts at the end of the table which is Dr. Sally Shaywitz 
from Yale University where she is the Audrey Ratner Professor 
in Learning Development at the Yale School of Medicine.
    She has a long list of titles, including the Co-Director of 
the Yale Center for Dyslexia and Creativity. She's one of the 
leading researchers in this field, and as a physician, her 
research focus really has been on neurobiology and 
epidemiology, providing a scientific basis for understanding 
dyslexia. She has written more than 200 journal articles and 
chapters in books on this topic. I know that she is a great 
source of counsel for both the Chairman of this hearing and 
myself, and I'm glad to have Dr. Shaywitz with us.
    Senator Cassidy. I'll introduce Mr. Baraka. Ameer is an 
actor and author from New Orleans who struggled to read his 
whole life. He didn't learn that he was dyslexic until age 23 
and incarcerated. In prison, he earned his GED and was 
empowered to influence youth who struggled the same way as he. 
I'm eager to hear how he has used his stardom--he is now an 
actor--to steer children off the path to incarceration.
    I'll defer to you, Senator Mikulski, to introduce Dr. Eden 
and Dr. Mahone.
    Senator Mikulski. I'd like to introduce Dr. Guinevere Eden. 
She is considered to be a nationally recognized expert in 
dyslexia research and one of the very first to use brain 
imaging and MRIs to better understand the neurological basis 
for dyslexia. She's been supported both by NIH and NSF and 
currently directs the Center for the Study of Learning at 
Georgetown. She continues to investigate while she is actively 
involved in teaching graduate students, investigating all the 
sensory processes related to reading and how these may be 
different in individuals. She's going to bring a lot to us.
    We also have Dr. Mark Mahone, who is a Baltimore guy 
through and through. He grew up in a neighborhood called 
Dundalk, which was very close to the one where I grew up. He's 
a pediatric neuropsychologist, and he is at the esteemed 
Kennedy Krieger Institute in Baltimore. This is an institution 
internationally recognized and dedicated to improving the lives 
of those, particularly children, with brain and other 
challenges.
    What Dr. Mahone does is provide clinical services for young 
kids with neurodevelopment disorders, works on the training of 
psychologists and educators and physicians on these issues, and 
really is an expert on involving the study of brain behaviors 
in children with or without these neurodevelopment disorders. 
He currently serves as the Co-Director of the Center for 
Innovation and Leadership in Special Education, and he brings 
really great knowledge about what the children need, but what 
the systems that are supposed to help the children need to do. 
I'm very proud to bring he and Dr. Eden to the committee's 
attention.
    Senator Cassidy. I'll next introduce David Boies, who is 
the Chairman of Boies, Schiller, and Flexner. He has been 
selected as one of the 100 most influential people in the world 
by Time magazine in 2010. He has been named Global 
International Litigator of the Year by Who's Who Legal an 
unprecedented seven times and has received many prestigious 
awards and numerous honorary degrees. Mr. Boies is a former 
Hill staffer, having served as Chief Counsel and Staff Director 
for the Senate Antitrust Subcommittee and the Senate Judiciary 
Committee.
    Thank you, Mr. Boies.
    And, last, Ms. April Hanrath, a small business owner and a 
single mom of two adopted children from Salt Lake City. Ms. 
Hanrath has been recognized as a child advocate in Utah for her 
work on behalf of children like her daughter, Jocelyn, who is 
behind her, who has dyslexia and other learning disabilities. 
She is a parent advocate with Understood, at 
www.understood.org, and attended the University of Utah before 
taking over the family business.
    Thank you all, and now I'll ask Dr. Shaywitz to begin her 
testimony and the rest to follow in order.

STATEMENT OF SALLY SHAYWITZ, M.D., CO-DIRECTOR, YALE CENTER FOR 
 DYSLEXIA AND CREATIVITY, YALE UNIVERSITY SCHOOL OF MEDICINE, 
                         NEW HAVEN, CT

    Dr. Shaywitz. Thank you. Good morning, Senator Cassidy, 
Senator Mikulski, and other committee members. Thank you for 
the opportunity to speak with you about the science of dyslexia 
and share with you the tremendous scientific progress that has 
been made in dyslexia and its important implications for 
education.
    The problem: Our Nation is in the midst of a national 
nightmare where substantial numbers of children are not 
learning to read, especially boys and girls from disadvantaged 
families. Just released, 2015 data from NAEP--I'm going to be 
showing a number of slides, and it would be helpful if people 
could see it.
    [Slides Shown]
    Senator Mikulski. We're looking at it right here.
    Senator Cassidy. We see it on the TV.
    Dr. Shaywitz. Oh, great.
    Senator Mikulski. Are you going to give us the NAEP 2015 
High School Reading Scores? We've got it.
    Dr. Shaywitz. Great. Just released 2015 data from NAEP, the 
Nation's report card, sends a loud warning signal. Here, 
outlined in yellow, the lowest achievers show large declines in 
reading, and, most alarming, the greatest drop in reading in 
two decades occurs, between 2013 and 2015.
    Reactions from experts: We're stalled. We're not making any 
progress. We need something substantially different. Increasing 
scientific evidence strongly points to dyslexia as the 
explanation and potential solution to our education crisis.
    As shown here, dyslexia puts all the pieces together. 
Dyslexia represents 80 percent to 90 percent of all learning 
disabilities and differs markedly from all others in that 
dyslexia is very specific and scientifically valid. Dyslexia is 
very common, affecting one out of five.
    Initial descriptions of dyslexia as an unexpected 
difficulty in reading are today empirically validated. A major 
step forward is Cassidy-Mikulski Resolution 275, providing a 
21st century definition of dyslexia incorporating scientific 
advances in dyslexia, especially its unexpected nature, and 
emphasizes the cognitive basis of dyslexia, difficulty getting 
the individual sounds of spoken language. It is not seeing 
words backward.
    Resolution 275 represents a landmark in aligning science 
and education. Dyslexia is a paradox. The same slow reader is 
often a very fast and able thinker, giving rise to our 
conceptual model of dyslexia as a weakness in getting the 
sounds of words surrounded by a sea of strengths in higher 
level thinking processes.
    Converging evidence has identified a neural signature for 
dyslexia. That is an inefficient functioning of those posterior 
left hemisphere reading systems. Our ongoing studies examine 
disruptions in brain connectivity in dyslexia, the role of 
attentional mechanisms in reading, and the economic 
consequences of dyslexia.
    Dyslexia is real. However, imaging cannot be used to 
diagnose individuals. The achievement gap between typical and 
dyslexic readers is large, occurs as early as first grade, and 
persists. Dyslexia has often dire consequences. Dyslexic 
students drop out of school at a significantly greater rate 
than their typically reading peers. As a consequence, they are 
often doomed to higher unemployment, lower earnings, and, as 
you heard from Senator Cassidy a few minutes ago, almost 50 
percent of prison inmates are dyslexic.
    In aligning education with science, certain principles 
emerge. One, given its high prevalence and scientific validity 
and harsh impact, dyslexia must be given prominence in 
reauthorization of IDEA. Schools must screen for and identify 
dyslexic students early. The dyslexic student should know his 
diagnosis and that he is smart.
    Moving forward, implementation requires a model 
incorporating 21st century scientific knowledge about dyslexia 
as shown in this slide: a school climate where everyone is on 
board, and the word, dyslexia, is used; small classes; 
evidence-based methods; et cetera.
    Where can this model be found? Independent schools for 
dyslexic students, for example, the Windward School in New 
York. However, the tuition is $52,000, a tuition out of reach 
of most middle class and certainly disadvantaged children. 
Public charter schools--a new model serving dyslexic students. 
An example is the Louisiana Key Academy, LKA, in Baton Rouge. 
Schools like LKA bring a quality and hope to all dyslexic 
children so that disadvantaged children are no longer left 
behind.
    I always think of people who are dyslexic--it reminds me of 
an iceberg, where you just see 10 percent--and we see the 
people who have succeeded, including my hero, David Boies, who 
is seated at this table--but we forget about the 90 percent 
that are unseen that are asking for help and could benefit from 
help.
    Thank you.
    [The prepared statement of Dr. Shaywitz follows:]
               Prepared Statement of Sally Shaywitz, M.D.
    Understanding Dyslexia: The Intersection of Scientific Research 
                              & Education
 dyslexia: explanation and potential solution to the educational crisis
    Good morning Senator Cassidy, Senator Mikulski, and other committee 
members. Thank you for the opportunity to speak with you about the 
science of dyslexia and share with you the tremendous scientific 
progress that has been made in dyslexia and its important implications 
for education.
                              the problem
    Our Nation is in the midst of a national nightmare where 
substantial numbers of children are not learning to read, especially 
boys and girls from disadvantaged families.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    (Slide 1) Just released 20015 data from NAEEP, the Nation's report 
card, sends a loud warning signal.
    Here on the lower right--the lowest achievers show large declines 
in reading and, most alarming, the greatest drop in reading occurs 
between 2013 and 2015. Reactions from experts: ``We're stalled . . .'' 
``We're not making any progress.'' ``We need something substantially 
different . . .''
    Increasing scientific evidence strongly points to dyslexia as the 
explanation and potential solution to our education crisis.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dyslexia represents 80 percent to 90 percent of all learning 
disabilities (Slide 2) and differs markedly from all others in that 
dyslexia is very specific and scientifically validated.
    Prevalence: Dyslexia is very common, affecting 1 out of 5.



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Unexpected Nature: (Slide 3) Initial descriptions of dyslexia as an 
``unexpected'' difficulty in reading are today empirically validated.
    Cognitive Basis: Dyslexia is a difficulty within the language 
system, more specifically, the phonological component of language--it 
is not seeing words backwards.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A major step forward is Cassidy-Mikulski Resolution 275 (Slide 4) 
providing a 21st century definition of dyslexia incorporating 
scientific advances in dyslexia, especially, its unexpected nature, and 
represents a landmark in aligning science and education.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    (Slide 5) Dyslexia is a paradox, the same slow reader is often a 
very fast and able thinker.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Neurobiology: Converging evidence has identified a neural signature 
for dyslexia--(Slide 6) that is, an inefficient functioning of those 
posterior, left hemisphere reading systems and (Slide 7) disruptions in 
connectivity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Early identification of dyslexia critical: (Slide 8) The gap 
between typical and dyslexic readers is large, present by first grade 
and persists.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    High Cost of Dyslexia: Dyslexia has often dire consequences (Slide 
9). Dyslexic students drop out of high school at a significantly 
greater rate than their typically reading peers.
    As a consequence they are doomed to higher unemployment, lower 
earnings, and significantly higher rates of anxiety and depression. 
Studies indicate that almost 50 percent of prison inmates may be 
dyslexic.
    In aligning education with science certain principles emerge:

    1. Given its high prevalence + scientific validity + harsh impact--
dyslexia must be given prominence in reauthorization of IDEA.
    2. Schools must screen and identify dyslexic students early.
    3. The dyslexic student should know his diagnosis (dyslexia) and 
that he is smart.

    Moving forward--Implementation--requires a model incorporating 21st 
century scientific knowledge about dyslexia; for example:

    <bullet> School climate--everyone at school on board, use the word 
dyslexia.
    <bullet> Small classes.
    <bullet> Evidence-based methods.
    <bullet> Knowledgeable, flexible, caring teachers.
    <bullet> Consistency in instruction across all classes.
    <bullet> A community to join--know they are not alone.
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Specific solutions: where can this model be found?

    <bullet> Independent schools for dyslexic students, (Slide 10) 
example, the Windward School in New York. (Slide 11).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Clearly, a tuition out of reach of middle class and disadvantaged 
children.

    <bullet> Public Charter Schools serving dyslexic students. (Slide 
12) An example is the Louisiana Key Academy in Baton Rouge. (Slide 13)




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A school like LKA brings equality and hope to all dyslexic children 
so that disadvantaged children are no longer left behind. (Slide 14)

    Senator Cassidy. Thank you, Dr. Shaywitz.
    Mr. Baraka.

     STATEMENT OF AMEER BARAKA, AUTHOR/ACTOR, TERRYTOWN, LA

    Mr. Baraka. Good morning, Senators and panelists. I want to 
thank you for taking your valuable time to listen to my 
message. We are coming up on an important Presidential 
election, and I know your time is important.
    I am also not oblivious to the challenges we face as a 
country. One such challenge is the lifelong curse of dyslexia. 
One out of five live with this challenge each day of their 
lives. Many will never reach their full potential and enjoy 
this great country as you and I do. Many people have lost the 
will to believe because the enemy, dyslexia, has forced them 
into the shadows. Today we have found a new way to address this 
enemy once and for all.
    For many years, I allowed dyslexia to control my life by 
robbing me of my God-given potential. Can you imagine in my 
early teens never wanting to be anything but a drug dealer? 
Neither my mother nor my school teachers were able to diagnose 
the reasons why I had trouble learning. In my mind, pursuing a 
more formal education was irrelevant. I knew early in life that 
being a dentist, a physical therapist, or a lawyer was out of 
my reach because I could not read.
    I turned to quicker pathways out of the New Orleans 
projects. I saw men in my community making ways for themselves 
without having to read by selling drugs. My defeatist attitude 
seemed to outweigh the positive values my grandmother tried to 
teach me. There were many more ingredients that helped me make 
my decision to sell drugs, for example, having my mother and 
siblings call me names such as dumb and stupid. Using names 
such as these can cause any child to feel hopeless and lost.
    You will notice that I never mention my father in this 
presentation. That's because he left when I was 3 years old to 
chase his dreams of finding a better grade of heroin to use. It 
was the perfect storm for me. I chose to succumb to my 
environment while both my brother and sister excelled in 
school. I didn't care about my future or anyone else, because I 
thought I was a dummy like my mother and my siblings said.
    I became a street thug and full of anger because I felt 
cheated out of an education. I went to school just because I 
had to as a kid. Many Fridays, I would malinger because I 
couldn't pass the spelling test, or I would sleep in a project 
hallway until school was out just to avoid embarrassment. I 
pushed myself into a hole, and I couldn't get out of it. My 
teachers had to know that I couldn't read. My young mother ran 
the streets and didn't seem to value my education.
    What became the final thing that caused me to pledge my 
allegiance to the lies of the streets was a girl. I was in 
sixth grade and a girl I liked was in my class. It was our 
first week of school. We were in English class and the teacher 
called on me to read out loud. My palms began to sweat. It felt 
like drops of blood on my forehead. I couldn't pronounce any of 
the words and the teacher made me continue, knowing I couldn't 
read. Some students laughed while others looked in amazement.
    From that day forward, I knew that school wasn't the place 
for me, and the young lady never really liked me much from that 
day forward. The streets became my classroom, and looking back, 
the lessons I learned were shameful. I shot and killed a young 
person because the streets taught me that that is how you 
resolve conflict. After my release from prison at 15 years of 
age for manslaughter, I got back into the drug game, still 
never learning to read. I ended up doing prison time as an 
adult.
    I ran from the law for 4 years as a fugitive because I was 
facing 60 years for drug distribution and I was guilty. I ended 
up doing 4 years because, by God's grace, a jury found me 
guilty of a lesser charge. At age 23, I entered into a prison 
correctional facility reading at a third grade level. I didn't 
feel so bad because many of the men there were just like me. We 
all read poorly. After reading the autobiography of Malcolm X, 
I discovered that he dropped out in seventh grade and still 
made something of himself. I thought for the first time in my 
life that I could accomplish something too. I worked hard, 
writing down each word I couldn't pronounce. I just kept 
memorizing words and writing letters and reading short books.
    A GED teacher noticed that I struggled with phonics and had 
me tested. He asked if my siblings could read. I told him that 
my siblings went to college. After testing me, he said I had a 
reading disability and it could be corrected if I was willing 
to work hard. I would write words down wrong so I sat in the 
front of class and double checked my answers. I worked for 4 
years trying to attain my GED. My reading ability surged and I 
was ready for the test. I passed and started helping others in 
math and vocabulary.
    Since my release from prison, I went on to model for 
clothing lines such as Nike. Also, I went to acting classes and 
worked with Academy Award winners Jessica Lange, Kathy Bates, 
Angela Bassett, Forest Whitaker, Blair Underwood, Hill Harper, 
and many others. I have produced four independent films and 
written my first book titled The Life I Chose: The Streets Lied 
to Me. It is meant to inspire others who are just like I was, 
hiding in the shadows and not getting help. It is also for 
those who believe that dealing drugs is a way out. Today there 
are schools available to help kids fight and dyslexia, schools 
like the Cassidys have.
    Thank you for your time and consideration.
    [The prepared statement of Mr. Baraka follows:]
                   Prepared Statement of Ameer Baraka
    Good morning Senators. I want to thank you for taking your valuable 
time to listen to my message. We are coming upon an important 
presidential election and I know your time is important. I'm also not 
oblivious to the challenges we face as a country. One such challenge is 
the life-long curse of dyslexia. One out of five people live with this 
challenge each day of their lives, so many will never reach their full 
potential and enjoy this great country as you and I do. Many people 
have lost the will to believe because the enemy, dyslexia, has forced 
them into the shadows. But today we have found a new way to address 
this enemy once and for all.
    For many years, I allowed dyslexia to control my life and rob me of 
my God-given potential. Can you imagine in your early teens never 
wanting to be anything other than a drug dealer? Neither my mother, nor 
my school teachers, were able to diagnose the reasons why I had trouble 
learning. In my mind, pursuing more formal education wasn't relevant. I 
knew early in life that being a dentist, physical therapist, or lawyer 
was out of my reach because I couldn't read. I turned to quicker 
pathways out of the New Orleans projects. I saw men in my community 
making a way for themselves, without having to read, by selling drugs. 
And my defeatist attitude seemed to outweigh the positive values my 
grandmother tried to teach me. There were many more ingredients that 
helped me make my decision to sell drugs, for example, having my mother 
and siblings call me names like ``stupid'' and ``dumb.'' Using names 
such as these can cause any child to feel hopeless and lost.
    You will notice, I never mention my father in this presentation. 
That's because he left when I was 3 years old to chase his dreams of 
finding a better grade of heroin to use. It was the perfect storm for 
me. I chose to succumb to my environment while both my brother and 
sister excelled in school. I didn't care about my future, or anyone 
else, because I thought I was a dummy like my mother and siblings said 
I was.
    I became a street thug and full of anger because I felt cheated out 
of an education. I went to school just because I had to as a kid. Many 
Fridays, I would ``malinger'' because I couldn't pass the spelling 
test, or I would sleep in a project hallway until school was out just 
to avoid embarrassment. I pushed myself into a hole that I couldn't get 
out of. My teachers had to know that I couldn't read. My young mother 
ran the streets and didn't seem to value my education. But what became 
the final thing that caused me to pledge my allegiance to the lies of 
the streets was a girl. I was in sixth grade and a girl I liked was in 
my class. It was the first week of school. We were in English class and 
the teacher called on me to read out loud. My palms began to sweat. It 
felt like drops of blood on my forehead. I couldn't pronounce any of 
the words and the teacher made me continue, knowing I couldn't read. 
Some students laughed, while others looked in amazement. From that day 
forward, I knew that school wasn't the place for me, and the young 
lady, never really liked me much from that day forward. The streets 
became my classroom and looking back, the lessons I learned were 
shameful. I shot and killed a young person because the streets taught 
me that is how you resolve conflict. After my release from prison at 15 
years of age for manslaughter, I got back into the drug game, still 
never learning to read. I ended up doing prison time as an adult.
    I ran from the law for 4 years as a fugitive because I was facing 
60 years for distribution of cocaine and I was guilty. I ended up doing 
4 years because, by God's grace, a jury found me guilty of a lesser 
charge. At age 23, I entered into a prison correctional facility 
reading at a third grade level. I didn't feel so bad because many of 
the men there were just like me. We all read poorly. But after reading 
the Autobiography of Malcolm X and discovering that he dropped out in 
seventh grade and still made something of himself, I thought for the 
first time in my life that I could accomplish something too. I worked 
hard, writing down each word I had trouble pronouncing. I just kept 
memorizing words and writing letters and reading short books. A GED 
teacher noticed that I struggled with phonics and had me tested. He 
asked if my siblings read well. I told him they went to college. After 
testing me, he said I had a reading disability and it could be 
corrected if I was willing to work hard. I would write things down 
wrong so I sat in the front of class and double checked my answers. I 
worked for 4 years trying to attain my GED. My reading ability had 
surged and I was ready for the test. I passed and started helping 
others in math and vocabulary. Since my release from prison, I went on 
to model for clothing lines such as Nike. Also, I took acting classes 
and worked with Academy Award winners Jessica Lang, Kathy Bates, Angela 
Bassett, Forest Whitaker, Blair Underwood, Hill Harper and many others. 
I have produced four independent films and written my first book titled 
``The Life I Chose: The Streets Lied to Me.'' It is meant to inspire 
others who are just like I was, hiding in the shadows and not getting 
help. It is for those who believe that dealing drugs is a way out. 
Today there are schools available to help kids fight and defeat 
dyslexia. Schools, such as the one Senator Cassidy and his wife have 
created, provide a model for what could be a solution. In my opinion we 
can stop people from allowing the dyslexia to rob them of all that this 
great nation has to offer. If we understand this enemy, we can work to 
prevent it from stealing our most fundamental asset, our youth. We need 
to remember that 1 in 5 has dyslexia and dyslexia is 80 to 90 percent 
of the LD or learning disability community. The science about dyslexia, 
where the problem is in the brain, may be the key to reversing the 
curse of dyslexia that is now plaguing this great country.

    Senator Cassidy. Thank you.
    Dr. Eden.

STATEMENT OF GUINEVERE EDEN, D.Phil., DIRECTOR, CENTER FOR THE 
   STUDY OF LEARNING, GEORGETOWN UNIVERSITY MEDICAL CENTER, 
                         WASHINGTON, DC

    Ms. Eden. Thank you, Senator Mikulski and Senator Cassidy, 
for inviting me to speak to you today. The research I'll be 
describing is largely emerged from the field of neuroscience 
and uses brain imaging technology to study the brain's 
structure and function. This research has resulted in 
tremendous advances in our understanding of the human brain, 
how it perceives information, how it learns, remembers, builds 
knowledge, and how it performs skills that are unique to 
humans, such as reading.
    Reading, a cultural invention that allows us to represent 
speech in symbolic form, involves a coordination of the brain's 
language areas with visual and auditory systems. At Georgetown 
University, with support from NIH and NSF, we have studied 
brain activity with functional MRI while participants process 
words. This allows us to noninvasively characterize the 
developmental trajectory of reading acquisition in children and 
also to understand the brain basis of reading in different 
writing systems and in different languages.
    Researchers have learned that acquiring reading changes the 
brain's structure and function. It is thought that learning to 
read involves co-opting of brain regions involved in language 
and visual object recognition and that these become recycled 
into a reading network. In other words, children's brains 
change as they learn to read.
    Brain imaging has also heightened our understanding of 
dyslexia. The field has grown rapidly and made significant 
contributions. It has helped people understand that the brains 
of children and adults with dyslexia are different. Their 
struggles with reading are not because they are stupid or 
because they are not trying hard enough. There is an 
explanation for their reading difficulties. There should not be 
a stigma.
    Researchers have also examined the impact of intensive 
reading intervention. We have learned that children and even 
adults with dyslexia not only make gains in reading, but also 
show measureable brain activity changes and plasticity. One of 
our studies has shown that some of the same brain areas that 
are used for reading are less engaged when children with 
dyslexia solve arithmetic tasks, highlighting the far-reaching 
consequences of dyslexia and the connection to other forms of 
learning disabilities.
    Sometimes we make novel discoveries with brain imaging for 
which there are no obvious indicators from behavioral studies. 
For example, we found that the brains of females with dyslexia 
do not conform to the neurobiological model of dyslexia that 
was largely derived from studies in males. This might have 
important implications for diagnosing and treating females with 
dyslexia.
    Dyslexia runs in families, and genetic researchers have 
utilized brain imaging to examine the brains of those who carry 
the dyslexia associated genes. Taken together, researchers have 
made significant advances in characterizing the brain basis of 
dyslexia. However, the exact mechanism of dyslexia, how it 
comes about, is not yet fully understood and requires further 
research. Also, the information gained has not been applied as 
well as it could be.
    For example, the fact that dyslexia is heritable, with 
roughly a 40 percent chance of your child having dyslexia if 
you have dyslexia, is greatly underutilized when it comes to 
early identification. This critical information is a warning 
sign, and there should be a place to note it on the 
questionnaire of an entering kindergartner. This, together with 
the child's performance on behavioral measures tapping skills 
known to predict later reading outcome, such as phonemic 
awareness and letter naming, can be used to signal that a 
particular child is at risk for difficulties in learning to 
read.
    On the other hand, imaging is not used to identify the 
child who has dyslexia. Brain imaging is used in research 
studies involving groups of participants. However, parents 
often ask for a brain scan in their child because they see the 
difficulties in their child with reading, and they worry that 
the school is not recognizing the problem, and they hope that a 
brain scan will provide some information.
    I understand such parents' quest for objective information 
because my own daughter recently had trouble reading and 
exhibited anxiety and avoidance around reading, which she 
described as a stupid activity. While the school was not 
concerned about her gradual decline, I was, and we pursued 
early intervention focused on phonemic and orthographic 
awareness. Her improvement, measured objectively by 
standardized tests, now manifests in her reading for pleasure.
    For parents of struggling readers, it's a challenge to 
determine if there is a problem and what to do about it. 
Parents have to educate themselves and navigate a complex 
educational system. They stay up late at night to try and make 
sense of the scientific research and how it applies to their 
child.
    Fortunately, there are resources to support families of 
children with learning issues, such as the website, 
understood.org. Here, the information is provided online, 
accessible to parents and educators, and tied to the findings 
of current research. This is one example of how those involved 
in understanding dyslexia can engage in a common language. 
However, much needs to be done by researchers and educators to 
jointly harness the knowledge of teaching and learning to 
benefit the children with dyslexia.
    Thank you.
    [The prepared statement of Ms. Eden follows:]
            Prepared Statement of Guinevere F. Eden, D.Phil.
    Thank you, Chairman Alexander and Ranking Member Murray, for 
holding this hearing and for the invitation to speak to you today about 
the intersection of scientific research and education in dyslexia. 
Thank you Senator Cassidy and Senator Mikulski for co-chairing today's 
hearing.
  brain imaging technology: advances in understanding the brain bases 
                        for reading and dyslexia
    The research I will be describing today has largely emerged from 
the field of neuroscience. The ability for scientists to use brain 
imaging technology to non-invasively study the brain's structure and 
function has resulted in tremendous advances to the understanding of 
the human brain, how it processes sensation, how it learns, how it 
remembers, and how it builds knowledge. Neuroscientists have been able 
to produce maps of brain regions underlying cognition and, importantly, 
skills that are uniquely human, such as reading.
    Reading, a cultural invention that allows us to represent speech in 
symbolic form, involves a coordination of the brain's language areas 
with the visual and auditory systems. At my center at Georgetown 
University, we have studied brain activity with functional MRI (fMRI) 
while participants process words.\1\ We use this approach to 
characterize the developmental trajectory of reading acquisition \2\ 
and to study reading in different writing systems \3\ and in different 
languages.\4\ In the cognitive neuroscientific community, there has 
been an explosion in the use of brain imaging for the purpose of 
visualizing the reading brain. Unlike other areas of cognition, reading 
is a uniquely human skill and cannot be ecologically simulated using 
animal models. The non-invasive nature of fMRI allows scientists to 
study children (around or even prior to the time that they begin to 
read) and to study them repeatedly so that brain changes over time can 
be captured.
    What researchers have learned is that the process of learning to 
read changes the brain's structure and function. People who never had 
the opportunity to learn to read manifest a different pattern of brain 
activity and have differences in brain anatomy compared to those who do 
learn to read.\5\ \6\ It seems that learning to read involves co-opting 
of brain regions involved in language and visual object recognition, 
and these become ``recycled'' into a ``reading network.'' In other 
words, as teachers are bringing about critical literacy skills in 
children through formal education, the children's brains change above 
and beyond the changes that occur based on maturation.
    Research also indicates that the brain needs to make some 
adjustments when becoming a reader, not only re-allocating brain 
functions from processing common objects to processing letters and 
words, but also adapting new rules. So while it is OK for objects, such 
as a chair, to be recognizable as the same object when it is viewed 
from the right or from the left, this is not OK for mirror letters such 
as p and q, and b and d. While these may look like the same object with 
mirror-reversal to a beginning reader (who will confuse them), 
successful reading acquisition requires that they become recognized as 
representing distinctly different letters.\7\
    Brain imaging technology has also heightened our understanding of 
dyslexia. Since our first implementation of functional MRI to study 
dyslexia in 1996,\8\ the field has grown rapidly and made significant 
contributions to the science of dyslexia. While researchers had already 
been using MRI to scrutinize brain structural differences in dyslexia, 
functional MRI has allowed researchers to visualize brain activity in 
groups of people with and without dyslexia.
    For example, functional MRI has been used to look at word 
processing and reading in children \9\ and adults \10\ with dyslexia . 
It has also been used to examine other functions that are not involved 
in reading, but may be affected in dyslexia (either as a part of having 
dyslexia, or as a consequence from having dyslexia).\11\
    Using brain imaging, researchers have also examined the impact of 
intensive reading intervention. We have learned that adults with 
dyslexia not only make gains in reading, but also show brain 
plasticity, as demonstrated by increases in brain activity.\10\ Brain 
anatomy is also malleable; in another study we found that reading 
intervention resulted in growth of brain tissue in children \12\ 
Together, these studies illustrate how reading gains in people with 
dyslexia are brought about by complex physiological and anatomical 
brain changes.
    Researchers are also evaluating to what degree brain imaging data 
can foreshadow the amount of reading gains that are made in children 
down the road,\13\ similar to prior work in which researchers 
identified behavioral measures such as rapid naming and phonemic 
awareness to be predictive of later reading outcome.\14\
    Some of the same brain areas that are compromised for reading are 
also underactive when children with dyslexia solve arithmetic 
tasks,\15\ highlighting the far-reaching consequences of dyslexia and 
their complex connection to other forms of learning disabilities.
    Interestingly, through brain imaging research we sometimes 
encounter brain-based observations for which there were no obvious 
indications from behavioral studies. For example, we found that the 
brains of females with dyslexia do not conform to the neurobiological 
model of dyslexia that was largely derived from studies of males.\16\ 
This might have important implications for diagnosing and treating 
females with dyslexia.
    Together, brain imaging research has become an important tool for 
understanding reading and is a leading contributor in addressing the 
multitude of theories that have been proposed to explain dyslexia.
          the intersection of scientific research & education
    While researchers are careful to assess what is directly causing 
the reading problems and to distinguish these brain differences from 
those that are a consequence or a byproduct of whatever is causing the 
dyslexia,\17\ it has become clear that children who eventually have 
dyslexia are likely to exhibit early signs of brain differences,\18\ 
much like specific behavioral measures in young children are lower for 
those who eventually go on to have dyslexia. This is not surprising 
given the brain-behavioral relationships and the fact that dyslexia is 
heritable. Scientific evidence supports genetic involvement, and a 
connection between dyslexia-associated genes and differences in brain 
activity.\12\ \13\
    Despite the fact that dyslexia often runs in families and there is 
research to explain genetic involvement, this knowledge is greatly 
underutilized when it comes to early identification. When a parent has 
dyslexia, the chances that their child has dyslexia are significantly 
higher, approximately 40 percent. Having this information provides a 
critical piece of information for educators and health care providers 
to consider when confronted with a child who is experiencing 
difficulties in learning to read, or even better, prior to that point. 
As such, a family history of reading disability should be noted on 
questionnaires for entering kindergartners along with health conditions 
(allergies, asthma) and home language environment. A family history of 
dyslexia can be very predictive of children at risk for reading 
difficulties \20\ and, together with early behavioral measures of 
skills known to predict later reading outcome (such as phonemic 
awareness and letter naming \21\), can be used to signal that a child 
is at risk for difficulties in learning to read.
    How else can we harness this knowledge to help children with 
dyslexia? Brain imaging research has helped people understand that the 
brains of children and adults with dyslexia are different. Their 
struggles with reading are not because they are stupid or because they 
are not trying hard enough. This helps children, parents, and teachers 
understand that there is an explanation for their reading difficulties. 
There should be no stigma.
    Brain imaging has helped scientists characterize dyslexia, and 
investigations are ongoing to refine theoretical brain-based models. 
However, these studies are conducted in a research setting and involve 
groups of participants. They are generally not conducted in a single 
person, and brain imaging is not used to make a determination of 
whether a specific child has dyslexia. Parents and teachers, however, 
often think that it does. Parents wish for a brain scan in their child 
because they see their child's difficulties with learning to read and 
often feel that the school is not recognizing the problem. They wish 
that they could get a picture of the child's brain to put in front of 
the teacher to ``prove'' they have dyslexia as a way to get more help 
for their child. However, brain imaging data cannot be used in this 
way.
    Parents have difficulties in gauging whether there is a problem 
with their child's reading abilities and, if so, what to do about it. I 
have personally been in this situation recently when my daughter in 1st 
grade seemed to have trouble sounding out words and reading fluently. 
This became especially worrying when she exhibited anxiety and 
avoidance around reading, showing clear frustration and describing it 
as stupid activity. I quickly realized the difference between my 
understanding of how reading is evaluated (using standardized tests 
that tap into a range of reading skills, such as decoding, fluency, and 
comprehension, and skills that support reading, such as phonemic 
awareness, rapid naming and working memory) and how it is measured in 
the school (text-reading accuracy using a story with a picture 
providing content clues). And I learned that as long as she reads at 
grade level, even if her performance continues to drop throughout the 
school year, and even though her level of reading is not aligned with 
her potential, she will be described as a normal reader. As such, the 
perspective on a child's performance when it comes to reading is very 
different in terms of the setting (home or school) and depending on the 
observer, because different observers use different contexts and have 
different goals. Recognizing the importance of early intervention, I 
arranged for my daughter to receive explicit instruction that bolstered 
both her phonemic (sound) and orthographic (visual word form) awareness 
over the summer. As a result of this, she moved from scoring at the 
16th percentile as a 1st grader to the 75th percentile as a 2d grader 
on a standardized measure of reading accuracy, and she is thriving.
    Not all parents have the resources or knowledge to intervene early. 
Learning to read is complicated, and for parents of a struggling 
reader, it is very challenging to determine if there is a problem and 
what to do about it. Fortunately, there are resources that are helpful 
to parents, teachers, and students. For example, the Web site 
Understood.org, a free, comprehensive online resource to support 
families of children with learning and attention issues (for which I 
serve as an expert contributor), can be a lifeline. Here, parents can 
access the information on early warning signs and learn what to do and 
how to take action. The information is provided in clear terms, while 
remaining tied to current scientific knowledge.
    Overall, the science of dyslexia has made significant advances. 
However, academic researchers, even those working in classrooms, are 
bound by academic practices to publish in specialty journals, which in 
turn can be inaccessible, physically and conceptually, to those who 
directly operate as educators in the field. Consequently, teachers may 
not be implementing approaches that have been proven to be successful 
by rigorous research studies. Conversely, researchers may be pursuing 
theories that are not relevant to real classroom settings. As such, 
there remains a physical and cultural distance between academic 
research and educational practices.
    Some agencies have addressed this problem. The National Science 
Foundation's Science of Learning Centers are a notable example of 
creating an environment to integrate knowledge across multiple 
disciplines, establishing common ground for conceptualization and 
connecting research with educational challenges. However, the dialog 
between science and the classroom is still far too limited. Academic 
and educational institutions will need to embrace a cultural change 
that facilitates jointly tackling the collective complexity of 
dyslexia, and engaging a common language and a common understanding of 
how to harness the knowledge of teaching and learning to the benefit of 
children with dyslexia.
                               References
    1. O.A. Olulade, D.L. Flowers, E.M. Napoliello, and G.F. Eden, 
``Developmental differences for word processing in the ventral 
stream,'' Brain Lang., vol. 125, no. 2, PP. 134-45, May 2013.
    2. P.E. Turkeltaub, L. Gareau, D.L. Flowers, T.A. Zeffiro, and G.F. 
Eden, ``Development of neural mechanisms for reading,'' Nat. Neurosci., 
vol. 6, no. 7, PP. 767-73, Jul. 2003.
    3. A.J. Krafnick, L.-H. Tan, D.L. Flowers, M.M. Luetje, E.M. 
Napoliello, W.-T. Siok, C. Perfetti, and G.F. Eden, ``Chinese Character 
and English Word processing in children's ventral occipitotemporal 
cortex: fMRI evidence for script invariance,'' NeuroImage, vol. 133, 
PP. 302-12, Mar. 2016.
    4. N.I. Jamal, A.W. Piche, E.M. Napoliello, C.A. Perfetti, and G.F. 
Eden, ``Neural basis of single-word reading in Spanish-English 
bilinguals,'' Hum. Brain Mapp., vol. 33, no. 1, PP. 235-45, Jan. 2012.
    5. S. Dehaene, F. Pegado, L.W. Braga, P. Ventura, G.N. Filho, A. 
Jobert, G. Dehaene-Lambertz, R. Kolinsky, J. Morais, and L. Cohen, 
``How Learning to Read Changes the Cortical Networks for Vision and 
Language,'' Science, vol. 330, no. 6009, PP. 1359-64, Nov. 2010.
    6. M. Carreiras, M.L. Seghier, S. Baquero, A. Estevez, A. Lozano, 
J.T. Devlin, and C.J. Price, ``An anatomical signature for literacy,'' 
Nature, vol. 461, no. 7266, PP. 983-86, Oct. 2009.
    7. S. Dehaene, L. Cohen, J. Morais, and R. Kolinsky, ``Illiterate 
to literate: behavioural and cerebral changes induced by reading 
acquisition,'' Nat. Rev. Neurosci., vol. 16, no. 4, PP. 234-44, Apr. 
2015.
    8. G.F. Eden, J.W. VanMeter, J.M. Rumsey, J.M. Maisog, R.P. Woods, 
and T.A. Zeffiro, ``Abnormal processing of visual motion in dyslexia 
revealed by functional brain imaging,'' Nature, vol. 382, no. 6586, PP. 
66-69, Jul. 1996.
    9. O.A. Olulade, D.L. Flowers, E.M. Napoliello, and G.F. Eden, 
``'Dyslexic children lack word selectivity gradients in occipito-
temporal and inferior frontal cortex,'' NeuroImage Clin., vol. 7, PP. 
742-54, 2015.
    10. G.F. Eden, K.M. Jones, K. Cappell, L. Gareau, F.B. Wood, T.A. 
Zeffiro, N.A.E. Dietz, J.A. Agnew, and D.L. Flowers, ``Neural changes 
following remediation in adult developmental dyslexia,'' Neuron, vol. 
44, no. 3, PP. 411-22, Oct. 2004.
    11. O.A. Olulade, E.M. Napoliello, and G.F. Eden, ``Abnormal visual 
motion processing is not a cause of dyslexia,'' Neuron, vol. 79, no. 1, 
PP. 180-90, Jun. 2013.
    12. A.J. Krafnick, D.L. Flowers, E.M. Napoliello, and G.F. Eden, 
``Gray matter volume changes following reading intervention in dyslexic 
children,'' NeuroImage, vol. 57, no. 3, PP. 733-41, Aug. 2011.
    13. F. Hoeft, B.D. McCandliss, J.M. Black, A. Gantman, N. Zakerani, 
C. Hulme, H. Lyytinen, S. Whitfield-Gabrieli, G.H. Glover, A.L. Reiss, 
and J.D.E. Gabrieli, ``Neural systems predicting long-term outcome in 
dyslexia.,'' PNAS, vol. 108, no. 1, PP. 361-6, Jan. 2011.
    14. R.K. Wagner and J.K. Torgesen, ``The nature of phonological 
processing and its causal role in the acquisition of reading skills.,'' 
Psychol. Bull., vol. 101, no. 2, PP. 192-212, 1987.
    15. T.M. Evans, D.L. Flowers, E.M. Napoliello, O.A. Olulade, and 
G.F. Eden, ``The functional anatomy of single-digit arithmetic in 
children with developmental dyslexia,'' NeuroImage, vol. 101, PP. 644-
52, Nov. 2014.
    16. T.M. Evans, D.L. Flowers, E.M. Napoliello, and G.F. Eden, 
``Sex-specific gray matter volume differences in females with 
developmental dyslexia,'' Brain Struct. Funct., vol. 219, no. 3, PP. 
1041-54, May 2014.
    17. A.J. Krafnick, D.L. Flowers, M.M. Luetje, E.M. Napoliello, and 
G.F. Eden, ``An investigation into the origin of anatomical differences 
in dyslexia,'' J. Neurosci., vol. 34, no. 3, PP. 901-8, Jan. 2014.
    18. N.M. Raschle, P.L. Stering, S.N. Meissner, and N. Gaab, 
``Altered neuronal response during rapid auditory processing and its 
relation to phonological processing in prereading children at familial 
risk for dyslexia,'' Cereb. Cortex N. Y. N 1991, vol. 24, no. 9, PP. 
2489-2501, Sep. 2014.
    19. N. Cope, J.D. Eicher, H. Meng, C.J. Gibson, K. Hager, C. 
Lacadie, R.K. Fulbright, R.T. Constable, G.P. Page, and J.R. Gruen, 
``Variants in the DYX2 locus are associated with altered brain 
activation in reading-related brain regions in subjects with reading 
disability,'' NeuroImage, vol. 63, no. 1, PP. 148-56, Oct. 2012.
    20. D.L. Lefly and B.F. Pennington, ``Reliability and validity of 
the adult reading history questionnaire,'' J. Learn. Disabil., vol. 33, 
no. 3, PP. 286-96, Jun. 2000.
    21. H.W. Catts, D.C. Nielsen, M.S. Bridges, Y.S. Liu, and D.E. 
Bontempo, ``Early Identification of Reading Disabilities Within an RTI 
Framework,'' J. Learn. Disabil., Aug. 2013.

    Senator Cassidy. Mr. Boies.

   STATEMENT OF DAVID BOIES, CHAIRMAN, BOIES, SCHILLER, AND 
                    FLEXNER, LLP, ARMONK, NY

    Mr. Boies. Thank you, Senators Cassidy and Mikulski, 
members of the committee.
    I am dyslexic. I'm a father of two dyslexic sons. I know 
from personal experience the obstacles that dyslexia can cause 
in terms of early education. I also know from personal 
experience, both my own and my sons, that while dyslexia is a 
permanent condition, it does not have to be a permanent 
disability. It does not have to interfere with the ability of a 
child to realize their full potential to become a functioning, 
productive member of society.
    What's critical is that dyslexia be identified and the 
children with dyslexia get the help that they need at the time 
they need that help. That help can be in several forms. It can 
be help in learning how to read around the disability of 
dyslexia. There is tutoring, there is training that can help 
people improve their reading. In addition, if they understand 
that they have dyslexia and they understand that there is this 
problem with reading, they can focus on alternative ways of 
getting information. Dyslexia is an input problem. It makes it 
difficult to get information in a particular way. There are 
alternative ways to get information, and, most important of 
all, dyslexia is not a processing problem. It doesn't have 
anything to do with how well you think, how good your judgment 
is.
    The third thing that early identification can do is it can 
help children understand that they're not dumb, that they're 
not stupid, that they can achieve. That can be sometimes the 
most important thing that a child can understand, that they are 
not consigned to being slow for the rest of their lives.
    There comes a time when nobody cares how fast you read. 
Nobody comes to me as a lawyer and wants to know how fast do I 
read. They want to know: can I analyze the law, can I present a 
case, can I cross-examine a witness, can I exercise judgment, 
can I help them solve legal problems, how well do I think, 
what's my integrity, what's my character, how hard do I work?
    Dyslexia doesn't have anything to do with those qualities. 
Those are the qualities that make a person successful. Those 
are the qualities that help somebody achieve and contribute to 
society. What children with dyslexia and what parents who have 
children with dyslexia need to understand is that this can be a 
temporary problem. It's not easy. There's an enormous amount of 
work that has to be done. No matter how much help we give 
children, they're going to have to really work harder than 
their peers. That training and working hard can serve them very 
well later in life. My son, Christopher, was tutored 4 days a 
week, every week, for 10 years. He had to learn to manage his 
time. He had to learn to adapt to that additional burden. That 
time management skill serves him extremely well as a lawyer 
today.
    He always did well in school, if he could get in, which was 
hard because he did very poorly on standardized tests. 
Standardized tests test what people with--who don't have 
dyslexia. It tests them pretty well. It doesn't test people 
with dyslexia at all, because what it's doing is it's testing 
skills that they don't have, and not the skills that are 
important.
    Reading and how much information and how many facts you've 
accumulated may be a proxy for your intelligence and how you 
will succeed in life if you don't have a disability in reading. 
If you have difficulty in reading, those standardized tests 
don't test your potential at all. We know we're testing the 
wrong things. We know that when we test reading, when we test 
how much vocabulary you have, we know that those aren't really 
life skills. We use those as a proxy, and they're not a bad 
proxy for people who don't have dyslexia. But for people who 
have dyslexia, they are a terrible proxy.
    What we have to do is we have to educate the educators, and 
we have to have the patience, and we have to give people the 
help that they need so that they can achieve their potential, 
and that can be done.
    Thank you.
    [The prepared statement of Mr. Boies follows:]
                   Prepared Statement of David Boies
    Millions of children and their family members suffer from the 
consequences of dyslexia. Most of those consequences are unnecessary; 
they are the result of a failure to timely recognize and properly treat 
those children.
    Recognizing the presence of dyslexia, and understanding what it is 
(and is not) is critical to enabling children with dyslexia to realize 
their potential and enjoy the happy, productive lives of which they are 
capable.
    Dyslexia's primary effect is to make it difficult for someone who 
is dyslexic to read as easily, and as fast, as they otherwise would. 
That effect is challenging enough. Reading is one of the most important 
ways by which we ordinarily acquire information--and it is the primary 
way most students, particularly in grade school, learn what they are 
tested on. Moreover, reading (particularly, again, in grade school) is 
valued, and tested, in its own right.
    Consequently, the ability to read becomes both the gateway to how 
students do on the tests by which they are judged by their parents, 
peers, teachers, and themselves and itself a marker for their success.
    Recognizing dyslexia early can enable students to receive both 
training that can improve their reading skills and help in using other 
ways of acquiring information.
    My dyslexia was not diagnosed until I was in my 30s and my reading 
skills in school were poor. I did not read essentially at all until 
late in third grade. However, my father was a high school history 
teacher and, including by attending his classes, I was fortunate to 
learn early the value of listening as a way of acquiring information.
    Recognizing dyslexia early has another, perhaps even more 
important, benefit. One of the most corrosive consequences of dyslexia 
is that its effects (difficulty in reading, poor scores on standardized 
tests) are often misinterpreted as low intelligence.
    Dyslexia is an input issue; it makes it difficult for people to 
read conventionally, and hence acquire information that way. It does 
not limit judgment or intelligence, or the ability to process 
information. In fact, there is some data that suggests dyslexia may be 
positively correlated with creativity.
    In school, particularly early grades, the ability to acquire 
information, and particularly the ability to read, is often treated as 
the equivalent of intelligence. Students who are slow in reading, and 
who accordingly fail to quickly acquire the information that 
conventional exams test, are too often classified by their teachers, 
their parents, and themselves as ``dumb'', ``stupid'', or simply 
inadequate.
    Difficulty in reading, and poor results on exams, can of course be 
due to lower than average intelligence, but the difficulty in reading 
that is caused by dyslexia has nothing to do with, and is not at all 
correlated with, intelligence.
    Difficulty in reading caused by dyslexia will inevitably affect a 
student's performance on examinations testing what a student has 
learned from reading assignments. But again this is not a reflection 
either of intelligence or the ability to learn--it is merely a 
reflection of the difficulty in learning in a particular way at a 
particular speed.
    Confusing an input problem (difficulty in reading) with a 
processing problem (low intelligence) not only prevents steps to solve 
the problem but also further erodes the student's confidence, and even 
their sense of self-worth; it can discourage a student from continuing 
to try, and discourage a student's teachers, and even parents, from 
continuing to try to encourage and help.
    Failing to timely recognize and properly understand and treat 
dyslexia has three consequences. First, children fail to get the help 
and training that can improve their ability to acquire information. 
Second, the lack of such help and training causes the child to fall 
further and further behind. Third, as the child falls further and 
further behind, and because the problem is perceived as a lack of 
intelligence that will follow the child throughout life, the child (and 
the child's teachers and families) become discouraged, and too often 
give up.
    Recognizing the real issue can enable the child to receive the help 
needed to improve reading skills and to learn to use alternative means 
for acquiring information. Even more important, it enables everyone to 
understand that the problem is largely temporary; success in life 
depends on judgment, intelligence, integrity, and commitment--not on 
how fast a person reads.
    Even though my dyslexia was not diagnosed early, I was fortunate. 
Growing up in a small Midwest farming town in the 1940s reading was not 
a metric by which young boys measured their self-worth. My parents, 
both public school teachers, were supportive and my father in 
particular helped me learn by a combination of what I would now call 
lectures and what I have since come to recognize as Socratic dialogs.
    It is much harder for today's young people who grow up in a time 
where there is academic competition to get into ``junior pre-
kindergarten'' (which, of course, is the year the student spends in 
school before ``senior pre-kindergarten'', which in turn is the year 
the student spends in school before kindergarten).
    There is so much emphasis on early learning and testing that 
students can be forgiven for concluding by the time they are teenagers 
that they will either be masters of the universe or abject failures 
based on how their academic progress to that point has been evaluated. 
Both, of course, are likely wrong. But the perception can derail both 
from reaching their potential.
    The debilitating effect that dyslexia can have on a child's 
confidence and sense of self-worth is aggravated by the fact that the 
very time reading and input most dominate reasoning and judgment in 
conventional test results, is the very time children are at their most 
vulnerable.
    Recognizing that the difficulty in reading dyslexia causes can be 
mitigated by training, that alternative ways of acquiring information 
can be emphasized, and that dyslexia does not imply anything about a 
person's ability to reason, analyze, or communicate can give students 
the patience to continue to work and achieve, and give their teachers 
and parents the patience to help and support them.
    Today some students whose families (and schools) can afford the 
best in testing are fortunate in having their dyslexia identified, 
understood, and treated early. However, the vast majority of students 
with dyslexia are not so fortunate. Their future, and the future 
contributions they can make to our society, is at severe risk. That 
risk is preventable.
    Dyslexia is not an indication of, and need not affect, the ability 
of a person to succeed in life. There are many well-known examples, and 
many, many more unknown examples, of people with dyslexia who are 
highly effective, productive, successful, members of society. Success 
in life is not a function of how fast a person can read. Life is rarely 
a timed test; even when it is, it is rarely if ever based on reading 
speed.
    We need to recognize this reality. We need to enable children, 
teachers, parents, and test administrators to recognize this reality. 
And we need to provide the resources and guidance that will help, not 
impede, children from reaching their potential. They deserve it. And 
our country needs it.

    Senator Cassidy. Dr. Mahone.

STATEMENT OF MARK MAHONE, Ph.D., ABPP, DIRECTOR, DEPARTMENT OF 
   NEUROPSYCHOLOGY, KENNEDY KRIEGER INSTITUTE, BALTIMORE, MD

    Mr. Mahone. Good morning, Senator Cassidy, Senator 
Mikulski, fellow members of the panel. Thank you for the 
opportunity to speak with you this morning.
    Dyslexia is currently the most prevalent educationally 
handicapping condition in the United States. It's twice as 
common as ADHD, 10 to 15 times as prevalent as autism. It 
affects an estimated one in five individuals nationwide. Even 
more importantly, many students show symptoms of dyslexia, 
including slow and inaccurate reading, weak spelling, or poor 
writing. Whether or not they meet full criteria for special 
education, most students benefit from systematic, explicit 
instruction in reading, writing, and language methods.
    The problem is that many students are not getting access to 
this structured literacy instruction. As a result, there's an 
alarming achievement gap. As was mentioned earlier, the NAEP 
data--I have results from 1998 through 2013--fourth grade data 
from the NAEP showed that 9 percent of students with 
disabilities scored proficient in reading, compared to 26 
percent of nondisabled peers. Both of those statistics are 
unacceptably low.
    But is the prevalence of dyslexia so high that it can 
explain these high rates of school failure? I would assert that 
it's no, but there are other reasons. First, it is that pre-
service teacher training programs routinely fail to provide 
teachers with the information based on the scientific 
literature about how learning occurs and also what gets in the 
way of learning, based on what we know from the neurosciences, 
from the behavioral sciences, and from the educational 
sciences. This leads to a translational gap.
    When teachers enter the field without prerequisite 
training, they must get the training on the job. They get it 
through supervision, mentoring, and from professional 
development. Getting training that way is expensive, 
inefficient, and burdensome to the schools and to the teachers 
themselves. It also places the responsibility for training 
teachers on the local school systems rather than on the 
institutes of higher education.
    Second, a complicating factor in working with students with 
dyslexia is that pure dyslexia is often the exception rather 
than the rule. Students with dyslexia often have associated 
behavioral, motivational, and social-emotional problems and 
other conditions that interfere with the implementation of 
otherwise routine, evidence-based practices. Addressing the 
reading problem alone instead of the needs of the whole child 
leads to incomplete and ineffective care.
    Third, individuals at the local education level in 
leadership positions often don't have the training, knowledge, 
and background to effectively and appropriately advocate for 
policy changes that will help translate what we know from the 
science into educational practice at the local school level, 
and especially as it relates to students with dyslexia.
    There are other additional concerns, and I want to 
highlight some of those. Despite the best efforts of our 
scientific community, there is still heterogeneity in 
terminology that has become an impediment to achieving 
consensus in identification, treatment, and epidemiology. We 
know that dyslexia is a neurobiologically based developmental 
disorder. It occurs along a continuum rather than as a discreet 
entity.
    We define it most often by low reading achievement. In the 
scientific literature, however, there are differences in where 
the cut point comes or how low someone has to perform in 
reading before it becomes dyslexia, with differences ranging 
from the 5th percentile up to the 25th percentile. Not 
surprisingly, when there are differences in the literature, the 
behavior, the learning, the neurobiological correlates, and 
genetics of dyslexia all look different depending on how it's 
defined.
    As we move forward with implementation of ESSA, it's 
critical for the scientific and educational communities to work 
toward a common language for identification in studying 
dyslexia with efforts toward a more specific terminology. This 
consistency extends to implementation of response and 
intervention.
    Finally, early detection of dyslexia is critical. But I 
must say we need to proceed with caution. The mission of early 
detection presents us with a conflict that requires awareness 
of the developmental appropriateness of reading expectations 
and reading instruction for a significant proportion of 
kindergarten children.
    We know how to identify early risk factors for dyslexia. As 
scientists, educators, and policymakers, we must distinguish 
between unexpected and unwarranted failures in reading 
achievement. In other words, considering early detection, we 
must determine whether a problem represents true dyslexia or 
the risk for it, or a brain that is just simply too young and 
not yet ready to read.
    This is particularly important because in the last 20 
years, even before Common Core standards, we have gone to a 
system in which kindergarten is the new first grade. There are 
emotional and motivational consequences associated with 
developmentally premature educational expectations for children 
who experience failure this early, and the risk is exacerbated 
in boys, who develop later than girls upwards of a year, on 
average, by kindergarten.
    Thank you.
    [The prepared statement of Mr. Mahone follows:]
             Prepared Statement of Mark Mahone, Ph.D., ABPP
                             the problem(s)
An Achievement Gap
    Approximately 13-14 percent of students in the United States (more 
than 6 million children) are identified as having a handicapping 
condition and receive special education services in school. Half of 
those identified for special education are classified as having a 
Specific Learning Disability, and approximately 85 percent of those 
having a primary learning disability have a learning disability in 
reading and language processing (i.e., dyslexia). As many as one-third 
of all students may have symptoms of dyslexia, including, but not 
limited to, slow or inaccurate reading, weak spelling, or poor writing. 
Not all meet full criteria for a ``disability,'' or will qualify for 
special education, but most benefit from systematic, explicit 
instructions in reading, writing, and language (also known as 
structured literacy instruction).
    In my home State of Maryland, the 2015 standardized assessments 
revealed that those students enrolled in special education performed 
dismally low. On the Partnership for Assessment of Readiness for 
College and Careers (PARCC) assessment for grade level 10, only 7.1 
percent of students in special education met or exceeded expected 
performance level (i.e., Level 4 or 5) for literacy, compared to 39.7 
percent of all students (which is still unacceptably low). These 
results are similar to national statistics for children with 
disabilities. Recent data from the National Assessment for Educational 
Progress (NAEP) for fourth grade achievement show a significant, long-
standing difference between all students and those with disabilities. 
From 1998 to 2013, 8.6 percent of students with disabilities scored 
proficient in reading versus 26 percent of non-disabled peers (also 
unacceptably low). The achievement gap for students with disabilities 
is especially prominent in schools with limited resources such as those 
in the Baltimore City Public School (BCPS) system, where the majority 
of the students come from low-income families and the need for services 
far surpasses available resources (BNIA, 2012). Moreover, according to 
the 2014 Department of Education Report to Congress on the 
Implementation of the Individuals with Disabilities Education Act 
(IDEA), only 10-15 percent of students with individualized education 
programs (IEPs) exit the special education system by returning to 
regular education.
Why Students Fail
    Why is it that so many students (with otherwise adequate 
intelligence) struggle or fail academically in today's schools? In 
particular, why are so many children failing when it comes to learning 
to read? Is the prevalence of dyslexia so high it can explain such high 
rates of school failure? I assert that the answer is no.
    There are a variety of (often inter-related) reasons, for academic 
failure, including: (1) poverty/disadvantage, (2) poor instructions, 
(3) childhood trauma (including neglect and abuse), (4) 
psychopathology, (5) chronic psychosocial stress, (6) illness or 
injury, and, the focus of my testimony, (7) highly prevalent 
neurodevelopmental disorders (i.e., dyslexia and Attention-deficit/
Hyperactivity Disorder--ADHD). The wait-to-fail model typically 
associated with current educational practices, where students first 
have to underperform in order to receive the necessary educational 
interventions, suggests students with disabilities may be at risk from 
early on in their educational lives.
Opportunity-to-Learn
    One potential explanation for this persistent achievement gap is 
the differential in the opportunity-to-learn (OTL), or the quantity and 
quality of instruction for students with disabilities compared to their 
non-disabled peers. Reduced OTL exists for students with disabilities 
despite increased access to the general education setting and 
curriculum (Eckes & Swando, 2009). Moreover, there is a demonstrated 
OTL differential for students with disabilities and their non-disabled 
peers, even within the same classroom (Kurz, et al., 2014).
Prevalence of Dyslexia
    Dyslexia is highly prevalent. It is not just the most common 
learning disability, but the most common developmental disorder--twice 
as prevalent as ADHD, and 10-15 times as prevalent as autism. The 
International Dyslexia Association (IDA) reports that dyslexia affects 
an estimated 8.5 million school children and one in six individuals 
nationwide.
Societal Risks Associated with Academic Failure
    Up to 76 percent of students with learning disabilities will be 
suspended at least once (Fabelo, et al., 2011). The presence of a 
learning disability also confers a greater risk for school dropout 
(Cramer, et al., 2014), especially among low-income students, and a 
well-documented connection exists between school dropout and 
incarceration (National Center on Secondary Education and Transition, 
2012). According to the National Disability Rights Network (2012), it 
is estimated that as many as 50 percent of inmates have some type of 
disability. In the juvenile justice system, this number is estimated to 
be up to 75 percent. Moreover, approximately 75 percent of youth under 
age 18 who have been sentenced to adult prisons have not completed 10th 
grade. Within the juvenile justice population, 70 percent suffer from 
learning disabilities and 33 percent are reading below the 4th grade 
level (Coalition for Juvenile Justice, 2001). Given these observations, 
appropriate (and thorough) early identification and provision of 
evidence-based intervention for children with learning disabilities, 
especially dyslexia, represents a public health priority.
Problems with Current Educational Practices
    While there are undoubtedly a variety of reasons behind the 
persistent achievement gap among children with disabilities (and 
dyslexia specifically), I assert that there are three critical problems 
with current educational practices that contribute most prominently to 
the chronically (and unacceptably) low performance and underlie this 
public health crisis.
    First, pre-service teacher preparation programs fail to routinely 
train educators to fully understand how learning occurs in children 
(and conversely, what processes get in the way of learning) using 
current knowledge from the developmental, behavioral, and neuroscience 
literature. As a result, the strategies and techniques being 
implemented by teachers of children with disabilities are often not 
based on available scientific evidence (i.e., a ``translation gap'').
    Second, despite (often intensive) intervention, students with 
dyslexia often continue to have significant associated problems (e.g., 
behavioral, motivational, psychiatric) that interfere with learning and 
with routine educational interventions. Addressing only the reading 
problem instead of all of the needs of the child leads to incomplete 
and ineffective care.
    Third, individuals in local educational leadership positions (i.e., 
those who make decisions regarding policy, training, and curricula) 
often do not have the training and knowledge to appropriately advocate 
for policy changes that ultimately benefit the behavior and learning of 
students with dyslexia.
       issues complicating the care of individuals with dyslexia
The Trouble with Terminology
    Despite best efforts by the scientific community, heterogeneity in 
terminology and definitions remains an impediment to achieving 
consensus in identification, treatment, and epidemiology. For the 
purposes of my testimony, I consider dyslexia to be equivalent to (or 
interchangeable with) a developmental learning disorder (or specific 
learning disability) in reading (i.e., reading disability or disorder). 
In other words, dyslexia is one type of (specific) learning disability.
    The Individuals with Disabilities Education Improvement Act of 2004 
uses the term Specific Learning Disability, defined as:

          ``A disorder in one or more of the basic psychological 
        processes involved in understanding or in using language, 
        spoken or written, that may manifest itself in an imperfect 
        ability to listen, think, speak, read, write, spell, or do 
        mathematical calculations. The term includes such conditions as 
        perceptual handicaps, brain injury, minimal brain dysfunction, 
        dyslexia, and developmental aphasia, while it excludes children 
        who have learning problems that are primarily the result of 
        visual, hearing, or motor handicaps; of mental retardation (now 
        known as intellectual disability); of emotional disturbance; or 
        of environmental, cultural, or economic disadvantage.''

    The 2013 guidelines outlined in the American Psychological 
Association's Diagnostic and Statistical Manual of Mental Disorders 
(DSM-5) use a slightly different term: Specific Learning Disorder. 
According to the DSM-5, diagnosis is made using a synthesis of the 
individual's history (development, medical, family, education), 
psychoeducational reports of test scores and observations, and response 
to intervention. Thus, the DSM-5 criteria reflect a hybrid model of 
identification. Importantly, the guidelines also reflect recognition 
that individuals may ``grow into'' their learning deficits; thus, 
functional problems may not be fully manifested until a later age.
    The definition of dyslexia used by the International Dyslexia 
Association--IDA (and also adopted by the Eunice Kennedy Shriver 
National Institute of Child Health and Human Development--NICHD), is as 
follows:

          ``Dyslexia is a specific learning disability that is 
        neurobiological in origin. It is characterized by difficulties 
        with accurate and/or fluent word recognition and by poor 
        spelling and decoding abilities. These difficulties typically 
        result from a deficit in the phonological component of language 
        that is often unexpected in relation to other cognitive 
        abilities and the provision of effective classroom instruction. 
        Secondary consequences may include problems in reading 
        comprehension and reduced reading experience that can impede 
        growth of vocabulary and background knowledge.''

    The DSM-5 provides more specific guidelines in its criteria than 
the IDA. DSM-5 criteria for a Specific Learning Disorder in reading 
includes difficulties with learning and using academic skills, as 
indicated by the presence of at least one of the following symptoms 
that have persisted for at least 6 months, despite the provision of 
interventions that target those difficulties:

    (1) inaccurate or slow and effortful word reading (e.g., reads 
single words aloud incorrectly or slowly and hesitantly, frequently 
guesses words, has difficulty sounding out words); or,
    (2) difficulty understanding the meaning of what is read (e.g., may 
read text accurately but not understand the sequence, relationships, 
inferences, or deeper meanings of what is read).
Dyslexia is Defined by Low Achievement in Reading--But How Low?
    Implied (or stated specifically) in the aforementioned definitions 
is the notion that dyslexia is a neurobiologically based developmental 
disorder that affects the brain's ability to receive, process, store, 
and respond to information. Although not specifically stated, dyslexia 
is considered to occur along a continuum, with variability in severity 
and characteristic features, rather than as a discrete, dichotomous 
entity. Put simply, in most cases, dyslexia refers to instances in 
which an individual's reading achievement unexpectedly falls at the low 
end of the normal distribution of all readers. Except in cases of very 
low overall intellectual level, this ``low achievement'' model of 
dyslexia is not tied to the child's overall IQ, and does not require a 
``significant discrepancy'' between the individual's IQ and reading 
achievement. Conversely, the model also does not imply that individuals 
with dyslexia have exceptionally high IQ, or compensatory ``strengths'' 
in other cognitive or academic skill areas.
    Unfortunately, while the low achievement model of dyslexia is 
fairly well-accepted in the scientific community, there is less 
consensus as to the threshold for defining low reading achievement as 
dyslexia, with distributional ``cutoff '' scores ranging from as low as 
the 5th percentile to the 25th percentile. Not surprisingly, the 
scientific literature yields different findings with regard to the 
cognitive and behavioral phenotypes, neurobiological correlates (e.g., 
neuroimaging, electrophysiology), and genetics of dyslexia depending on 
how it is defined.
    Additionally, given that the Federal definition of a Specific 
Learning Disability in reading used in determining eligibility for 
special education services leaves considerable room for local 
interpretation (e.g., relative to the criteria for Intellectual 
Disability), school districts across the U.S. demonstrate considerable 
inconsistency in diagnostic practices. Although clearly not the intent 
of the Federal law, in practice, it is not uncommon for a child 
receiving special education services for dyslexia in one school 
district to move to another district and be declared suddenly 
``ineligible'' based on the new district's interpretation of the 
criteria.
Developmental Course of Dyslexia
    Dyslexia is acknowledged as a developmental disability. That means 
those with ``symptoms'' of reading problems do not necessarily have a 
disability. Specifically, a disability is considered to occur when 
one's personal limitations (often biological in nature) produce a 
significant disadvantage when attempting to function in one's society. 
Thus, a learning disability is necessarily considered within the 
context of the environment, personal factors, and individualized 
supports. It implies that there is a ``mismatch'' or discrepancy 
between one's own biology and demands of the environment (considering 
all available supports). As a developmental disability, it is 
acknowledged that this discrepancy (and the functional impact) 
associated with dyslexia can change over time.
    For most individuals with dyslexia, the functional deficits first 
have an impact in childhood, usually in the preschool or early 
elementary school years. For some, however, the manifestations and 
impact may not become evident until later in childhood, in the teenage 
years, or even in the adult years, even though the neurobiological 
basis of the condition is present earlier--a concept referred to as the 
``time referenced symptom'' (Rudel, 1981). Nevertheless, in most 
individuals with dyslexia, the disorder manifests in a persistent 
functional deficit, rather than a developmental lag. The functional 
disability often persists over time, despite intervention efforts, and 
typically does not spontaneously remit with time or age. Among 
individuals with early-onset learning disabilities who have received 
consistent, high-quality intervention by early elementary school, 
deficits in word reading accuracy can improve; however, deficits in 
phonological processing, automaticity of word recognition, expressive 
language, and reading fluency tend to persist.
It's Not Just Decoding: Reading Fluency and Processing Speed
    Reading fluency, or the ability to read words quickly either in 
isolation or text, is especially critical for older children who are 
required to learn from what they are reading. The lack of fluency 
increases demands on other processes, such as working memory, and 
results in difficulty with comprehension because higher-level processes 
have to compete with word decoding for the same time-limited resources, 
creating a bottleneck. Therefore, especially for older children, it is 
critical that they are not only accurate at word reading, but also 
efficient, automatic, and fluent readers. It is well-established that 
rapid automatized naming deficits (reflective of poor automaticity) are 
present in individuals with dyslexia; however, automaticity deficits 
are also observed in children referred for learning problems, whether 
or not they have dyslexia specifically (Waber, et al., 2000).
    Dyslexia and ADHD represent the two most common childhood 
neurodevelopmental disorders. Approximately 35-40 percent of children 
with dyslexia have ADHD; while 35-40 percent of children with ADHD have 
dyslexia. As such, the two disorders co-occur more often than expected 
by chance (Couto, et al., 2009). The most parsimonious explanation for 
the co-occurrence is that they partially share genetic risk factors 
(Greven, et al., 2011).
    To this end, scientists have identified a ``multiple-deficit'' 
model to explain the comorbidity between ADHD and dyslexia in which 
each disorder manifests multiple deficits--some specific and some 
shared (Pennington, et al., 2010). The ADHD model includes one unique 
predictor (response inhibition) and one shared predictor (processing 
speed), while the dyslexia model includes two unique predictors 
(phonological awareness, naming speed), and one shared predictor 
(processing speed). Here, processing speed represents the speed with 
which a task is completed with reasonable accuracy.
    Children with ADHD (nearly 10 percent of students ages 4-17 years; 
Pastor, et al., 2015) commonly display slow processing speed (Jacobson, 
et al., 2011); however, slow processing speed is also observed in 
children with dyslexia (Willcutt, et al., 2005). Becoming a skilled 
reader involves adequate reading fluency, which is linked to efficient 
processing speed. Thus, while processing speed is separable from the 
core phonological deficit in dyslexia, it can influence reading 
fluency, even among individuals who can read single words accurately 
(i.e., those without ``classic'' phonological dyslexia), and can affect 
the development of more complex academic skills such as reading 
comprehension (Sesma, et al., 2009).
    To this end, processing speed (a core skill underlying reading 
fluency) may represent a promising candidate for a behavioral 
``polyphenotype'' (i.e., a phenotype constituting core deficits of more 
than one disorder), whose psychological makeup can account for 
comorbidity between common neurodevelopmental conditions and whose 
genetic architecture can account for the phenotypic correlations 
between these highly prevalent disorders (Gregorinko, 2012).
Late Emerging Reading Disabilities and Reading Comprehension
    Approximately 41 percent of all students with dyslexia have late-
emerging reading disabilities; that is, deficits are not evident until 
at least third grade. This pattern, sometimes known as the ``fourth-
grade slump,'' can be associated with the transition from ``learning to 
read'' to ``reading to learn,'' and may also be related to reduced 
vocabulary development in students of low socioeconomic status 
backgrounds. From this point forward, curricula emphasize fluency and 
comprehension rather than more basic word recognition skills. Beyond 
third grade, students are also expected to be able to incorporate 
cause/effect sequences, goals/plans for characters, and conclusions 
that relate to final events to those at the beginning of the story (all 
higher-order cognitive skills). Children who received early 
intervention and showed improvement may start to struggle again with 
the increased demands and volume of middle and high school reading and 
when they are expected to work more independently.
    Late-emerging reading disabilities are often associated with 
coexisting conditions, especially ADHD, the second most common 
developmental disability. It is clear that children who have early 
problems involving basic word recognition will most likely also have 
difficulty with reading comprehension; however, more recently, 
researchers have identified groups of children without reading basic 
word reading deficits who go on to have difficulties in reading 
comprehension, perhaps as a result of their associated executive 
function deficits (Sesma, et al., 2009). These children are considered 
to have ``specific'' reading comprehension disorders (Cutting, et al., 
2009; Locascio, et al., 2010), and many also have associated ADHD. 
Working memory deficits (i.e., problems ``holding'' and manipulating 
information mentally) associated with ADHD can prevent students from 
monitoring what they read, as they are more susceptible to being 
distracted by detail when reading longer text--failing to ``remember'' 
main ideas. These findings challenge the long held ``simple view'' of 
reading (Hoover & Gough, 1990), which argued that reading comprehension 
was primarily the product of word reading and listening comprehension, 
and acknowledge the important contribution of higher-order ``executive 
function'' skills to the development of competent reading.
Early Detection of Dyslexia--Proceed with Caution
    The 2016 Research Excellence and Advancements for Dyslexia Act 
(READ Act) (H.R. 3033) supports important research to further our 
understanding of dyslexia, including emphasis on better methods for 
early detection and teacher training. The Act specifies early 
identification of children and students with dyslexia, professional 
development about dyslexia for teachers and administrators, curricula 
development and evidence-based educational tools for children with 
dyslexia. As an educator, clinician and scientist, I applaud these 
efforts.
    Nevertheless, when considering early detection of dyslexia (i.e., a 
developmental disability, as defined above), it is critical to 
distinguish between ``unexpected'' and ``unwarranted'' failures in 
reading achievement. In other words, when considering early detection, 
one must determine whether a problem represents true dyslexia or a 
brain that is not (yet) ready to read. To be clear, with informed 
assessment, risk for dyslexia can be identified early (often in the 
preschool years); however, we need to be very careful that we are not 
simply identifying children who are not yet biologically ready to read, 
but who have been pushed (too early) into academic demands. The 
scientific literature suggests that early (and accurate) identification 
of dyslexia and appropriate teaching of reading can prevent the 
experience of failure in children who are at risk. With appropriate 
interventions, the life history of students with dyslexia can be 
substantially ``normalized'' and secondary mental health issues 
averted.
    In the last 20 years, however, even before NCLB, ESSA, Common Core 
Standards, or PARCC, there has been an alarming trend toward increasing 
early academic demands, such that Kindergarten is the ``new first 
grade.'' These practices ignore the child (and brain) development 
scientific literature as it relates to developmental readiness for 
academic demands. There are risks associated with developmentally 
premature educational expectations for the children who experience 
failure, and the emotional/motivational consequences of encountering 
premature reading and writing expectations may be long lasting. 
Moreover, the over-burdening of the already under-supported special 
education services with the ``unready'' now becoming indistinguishable 
from the truly dyslexic is yet another serious consequence. At the 
level of brain development, children forced prematurely to perform 
academic tasks may do so and appear to make progress, however, at the 
expense of using suboptimal circuitous pathways in the brain that 
ultimately may fail to support efficient and comfortable skill 
utilization in later years. This risk is exacerbated in young boys, 
whose physical maturation and brain development are at least a year 
behind that of same-age girls by Kindergarten entry (Eme, 1992; 
Lenroot, et al., 2007).
    Thus, the (very appropriate) mission of early detection of dyslexia 
presents us with a conflict that requires awareness of the 
developmental appropriateness of reading instructions and reading 
expectations for a significant proportion of students in Kindergarten 
(or younger).
``Pure'' Dyslexia is the Exception, Not the Rule
    Most definitions of dyslexia specify that the observed difficulties 
in reading are not due to other physical, cognitive, or emotional 
exclusionary factors. The assessments of these exclusionary factors are 
often complicated, because dyslexia commonly co-occurs with ADHD, 
language and other communication disorders, developmental motor 
coordination disorder, and other psychiatric disorders, including 
anxiety disorders and depression.
    A sizable proportion of students with dyslexia have associated 
social-emotional problems, with estimates ranging from 38 percent to 75 
percent (Bryan, et al., 2004). A recent meta-analysis revealed that 
approximately 70 percent of students with learning disabilities 
experience higher levels of anxious symptomatology than their peers 
without learning disabilities (Nelson & Harwood, 2011), raising the 
concern that many (if not most) students with dyslexia are at high risk 
for anxiety disorders that cause additional distress, reduce 
motivation, and complicate interventions (given the negative impact of 
anxiety on cognitive performance of all kinds). Students with learning 
disabilities are also at greater risk for developing depression, as 
they tend to struggle with self-esteem and are less socially accepted 
than students without learning disabilities (Maag & Reid, 2006), and 
some studies have shown a link between learning disabilities and 
increased rates of suicide (Bender, et al., 1999).
    Given these associations, ``pure'' dyslexia is more the exception 
than the rule, and attention to the associated conditions and risks is 
of paramount importance.
                         what needs to be done
    The prevalence, morbidity, and societal costs associated with 
dyslexia represent a major public health concern. In light of the 
problems cited above, I offer the following recommendations to support 
individuals with dyslexia and their families.

    1. Support Translational Educational Practices. The wealth of 
scientific knowledge is often not accessible to front line teachers. 
Pre-service (undergraduate and graduate) and professional development 
training programs for teachers provide inadequate training in evidence-
based practices for identification of dyslexia and intervention. If 
teachers are trained in evidence-based practices, they will use them. 
If they enter the field without this training, they will need access to 
professional development programs, along with supervision and 
mentoring, in order to use these programs with accuracy and fidelity.
    2. Strive for Consistency in Diagnostic Practices. It is critical 
for the scientific and educational communities to work toward a common 
language and a common set of procedures for identifying dyslexia, with 
efforts aimed toward more specific terminology.
    3. Increase opportunity-to-learn (OTL) for students with dyslexia. 
OTL is dependent on three interrelated classroom practices: (1) the 
amount of instructional time committed to the curriculum; (2) the use 
of evidence-based practices for teaching students with dyslexia; and, 
(3) classroom emphasis on best practices for supporting and developing 
high-order cognitive skills, such as problem solving, planning, and 
organizing thoughts and information (which are especially important, 
considering the comorbid conditions associated with dyslexia). Given 
the increased emphasis within classroom assignments and in standardized 
testing (such as PARCC) on integration of information, self-monitoring, 
and problem solving, competence in higher-order cognitive skills 
(executive functions) is critical to student success and to narrowing 
the achievement gap.
    4. Recognize the many forms of dyslexia. Dyslexia should be 
considered to include not only difficulties in phonology, decoding, 
automaticity and word recognition, but also the (often later emerging) 
problems in reading fluency and comprehension.
    5. Support training of general educators. Recognize that most 
children with dyslexia are taught primarily by general education 
teachers. It is critical to support inclusive practices in which 
special educators and reading specialists collaborate with general 
educators.
    6. Treat the whole child--not just reading. Support efforts that 
allow acknowledge that students with dyslexia are at risk for 
psychosocial, language, motivational, academic, neuromotor, and 
psychiatric co-morbidities. By treating only reading problem, we reduce 
the chances for positive outcomes.
    7. Support use of developmentally appropriate methods for early 
identification. It is critical that those involved in early 
identification of dyslexia understand the potential for 
misidentification of children who are prematurely placed into 
academically accelerated programs before their brains are 
developmentally ready.
                            References Cited
Baltimore Neighborhood Indicators Alliance Jacob France Institute. 
    (2012). Vital Signs 10: Measuring Baltimore's continued progress 
    toward strong neighborhoods. Retrieved from www.bniajfi.org/
    vital_signs_report/Vital_Signs_10_Full_
    Report.pdf.
Bender, W.N., Rosenkrans, C.B., & Crane, M. (1999). Stress, depression 
    and suicide among students with learning disabilities: Assessing 
    the risk. Learning Disabilities Quarterly, 22, 143-56.
Bryan, T., Burstein, K., & Ergul, C. (2004). The social-emotional side 
    of learning disabilities: A science-based presentation of the 
    state-of-the-art. Learning Disabilities Quarterly, 27, 45-51.
Coalition for Juvenile Justice. (2001). Abandoned in the back row, new 
    lessons in education and delinquency prevention, coalition for 
    juvenile justice, 2001 annual report. Retrieved from https://
    www.juvjustice.org/sites/default/files/resource-files/
    resource_122_0.pdf.
Couto, J.M., Gomex, L., Wigg, K., Ickowicz, A., Pathare, T., Malone, 
    M., Barr, C.L. (2009). Association of ADHD with a candidate region 
    for reading disabilities on chromosome 6p. Biological Psychiatry, 
    66(4), 368-75. doi:10.1016/j.biopsych.2009.02.016.
Cramer, E.D., Gonzalez, L., & Pellegrini-Lafont, C. (2014). From 
    classmates to inmates: An integrated approach to break the school-
    to-prison pipeline. Equity & Excellence in Education, 47, 461-475.
Cutting, L.E., Materek, A., Cole, C.A.S., Levine, T., & Mahone, E.M. 
    (2009). Effects of fluency, oral language, and executive function 
    on reading comprehension performance. Annals of Dyslexia, 59(1), 
    34-54. doi:10.1007/s11881-009-0022-0.
Eckes, S.E., & Swando, J. (2009). Special education subgroups under 
    NCLB: Issues to consider. Teachers College Record, 111, 2479-2504. 
    Eme, R.F. (1992). Selective female affliction in development of 
    disorders of childhood: A literature review. Journal of Clinical 
    Child Psychology, 21, 354-64.
Fabelo, T., Thompson, M.D., Plotkin, M., Carmichael, D., Marchbanks, 
    M.P., III, & Booth, E.A. (2011). Breaking school rules: A statewide 
    study of how discipline relates to student's success and juvenile 
    justice involvement. Retrieved from https://csgjusticecenter.org/
    wp-content/uploads/2012/08/Breaking_Schools_
    Rules_Report_Final.pdf.
Fletcher, J.M. (2009). Dyslexia: Evolution of a scientific concept. 
    Journal of the International Neuropsychological Society, 15, 501-8. 
    doi:10.1017/S1355617709090
    900.
Greven, C.U., Harlaar, N., Dale, P., & Plomin, R. (2011). Genetic 
    overlap between attention-deficit hyperactivity disorder and 
    reading is largely driven by inattentiveness rather than by 
    hyperactivity-impulsivity. Journal of the Canadian Academy of Child 
    and Adolescent Psychiatry, 20, 6-14.
Grigorenko, E.L. (2012). Correspondence: Translating quantitative 
    genetics into molecular genetics: Decoupling reading disorder and 
    ADHD--Reflections on Greven, et al. and Rosenberg, et al. (2012). 
    Journal of Child Psychology and Psychiatry, 53(3), 252-53. 
    doi:10.1111/j.1469-7610.2011.02524.x.
Hoover, W.A., & Gough, P.B. (1990). The simple view of reading. Reading 
    and Writing, 2(2), 127-60. doi:10.1007/BF00401799.
Jacobson, L., Ryan, M., Martin, R., Ewen, J., Mostofsky, S., Denckla, 
    M., Mahone, E.M. (2011). Working memory influences processing speed 
    and reading fluency in ADHD. Child Neuropsychology, 17(3), 209-24. 
    doi:10.1080/09297049.2010.
    532204.
Kurz, A., Elliot, S.N., Lemons, C.J., Zigmond, N., Kloo, A., & Kettler, 
    R.J. (2014) Assessing opportunity-to-learn for students with 
    disabilities in general and special education classes. Assessment 
    for Effective Intervention, 40, 24-29. DOI: 10.1177/
    1534508414522685.
Lenroot, R.K., Gogtay, N., Greenstein, D.K., Molloy Wells, E., Wallace, 
    G.L., Clasen, L.S., Giedd, J.N. (2007). Sexual dimorphism of brain 
    developmental trajectories during childhood and adolescence. 
    NeuroImage, 36(4), 1065-73.
Locascio, G., Mahone, E.M., Eason, S., & Cutting, L.E. (2010). 
    Executive function among children with reading comprehension 
    deficits. Journal of Learning Disabilities, 43(5), 441-54. 
    doi:10.1177/0022219409355476.
Maag, J.W., & Reid, R. (2006). Depression among students with learning 
    disabilities: Assessing the risk. Journal of Learning Disabilities, 
    39, 3-10.
National Center on Secondary Education and Transition. (2012). Dropout 
    and graduation: Frequently asked questions. Retrieved from http://
    ncset.org/topics/dropout/default.asp?topic=36.
National Disability Rights Network. (2012). Issues: Criminal justice. 
    Retrieved from http://www.napas.org/en/issues/criminal-
    justice.html.
Nelson, J.M., & Harwood, H. (2011). Learning disabilities and anxiety: 
    A meta-analysis. Journal of Learning Disabilities, 44, 3-17.
Pastor, P., Reuben, C., Duran, C., & Hawkins, L. (2015, May). 
    Association between diagnosed ADHD and selected characteristics 
    among children aged 4-17 years: United States, 2011-2013. (Issue 
    Brief No. 201). Hyattsville, MD: National Center for Health 
    Statistics.
Pennington, B., McGrath, L., Rosenberg, J., Barnard, H., Smith, S., 
    Willcutt, E., Olson, R.K. (2010). Gene x environment interactions 
    in reading disability and ADHD. Developmental Psychology, 45(1), 
    77-89. doi:10.1037/a0014549.
Rudel, R.G. (1981). Residual effects of childhood reading disabilities. 
    Annals of Dyslexia, 31(1), 89-102.
Sesma, H.W., Mahone, E.M., Levine, T., Eason, S., & Cutting, L. (2009). 
    The contribution of executive skills to reading comprehension. 
    Child Neuropsychology, 15(3), 232-46. doi:10.1080/
    09297040802220029.
Waber, D., Wolff, P.H., Forbes, P.W., & Weiler, M.D. (2000). Rapid 
    automatized naming in children referred for evaluation of 
    heterogeneous learning problems: How specific are naming speed 
    deficits to reading disability? Child Neuropsychology, 6, 251-61.
Willcutt, E.G., Pennington, B.F., Olson, R.K., Chhabildas, N., & 
    Hulslander, J. (2005). Neuropsychological analyses of comorbidity 
    between reading disability and attention deficit hyperactivity 
    disorder: In search of the common deficit. Developmental 
    Neuropsychology, 27(1), 35-78.

    Senator Cassidy. Ms. Hanrath.

     STATEMENT OF APRIL HANRATH, PARENT, SALT LAKE CITY, UT

    Ms. Hanrath. Good morning, Senator Cassidy, Senator 
Mikulski, members of the HELP Committee, fellow witnesses, and 
attendees. Thank you for giving me an opportunity to share my 
family's story of living with dyslexia. My name is April 
Hanrath, and I am the proud mother of Jocelyn, who is a senior 
in high school in our hometown of Salt Lake City, UT. I am also 
a parent advocate with Understood, a free comprehensive online 
resource for parents of children with learning and attention 
issues.
    I am honored to share our journey with dyslexia as we have 
navigated through the educational system in Utah. I also 
recognize that we are not alone in this journey. Over 2 million 
children have learning disabilities, most of whom struggle with 
reading, and the National Center for Learning Disabilities 
estimates that another 15 percent of students struggle in 
school due to an unidentified learning or attention issue. I 
sit before you eager to tell our story, but hopeful that you 
will have an opportunity to meet parents from your States who 
face similar challenges and successes.
    Through my testimony, I hope you will hear three messages 
come through loud and clear. First, it is critically important 
to identify learning disabilities like dyslexia in early 
elementary school. Second, we must support general and special 
educators by giving them training about dyslexia and learning 
disabilities, co-occurring issues, and necessary 
accommodations. Third, and most importantly, all of us must 
have high expectations for students with dyslexia.
    Policymakers, educators, and families alike must recognize 
that students like Jocelyn are fully capable of excelling in 
school and college. My daughter, Jocelyn, is proof that when 
you hold students with dyslexia to high standards and provide 
them with the tools they need to succeed, they are able to 
fulfill their goals and dreams. Let me tell you a little about 
Jocelyn, who is sitting right behind me. Jocelyn is a driven, 
bright young woman who has excelled in school and soccer. In 
everything she does, she holds herself to a high standard, and 
failure has never been an option for her. Yes, Jocelyn has 
learning disabilities, as she is dyslexic, but she has never 
used her challenges as an excuse to not achieve. In fact, it 
has only motivated her to work harder.
    Next month, Jocelyn will graduate high school with a GPA of 
over 3.7. Next year, she will enroll in Highline Community 
College in Washington State with a soccer scholarship and an 
internship with the Seattle Reign, the professional women's 
soccer team. After that, she plans to finish college at a 4-
year school to earn her degree in sports management with a 
sports psychology minor. To support her goals, I am proud to 
say that Jocelyn received the 2016 Allegra Ford Thomas 
Scholarship from the National Center for Learning Disabilities.
    That's Jocelyn now, but over the past 13 years, we've had 
our ups and downs. When Jocelyn was in fourth grade, she was 
struggling with reading and started becoming withdrawn from 
school. At the end of fourth grade, Jocelyn was evaluated for 
special education and found to have an above average IQ with 
significant dyslexia, poor fine motor skills, and severe test 
anxiety. She has also had challenges with writing, known as 
dysgraphia; keeping herself focused and managing time, known as 
executive functioning; and difficulty with focusing, like ADHD. 
Looking back, I wish Jocelyn's needs were addressed earlier 
than fourth grade, a time when reading is an integral part of 
nearly every class in school. Starting in fifth grade and 
largely continuing to today, Jocelyn has received 
accommodations like extra time, oral testing, and using a 
computer rather than having to hand write assignments. These 
accommodations have made a huge difference for Jocelyn because 
they allow her teachers to teach her in a way that works for 
her. They allow her to show what she knows in a more accurate 
way.
    For me, as her mother, what is of paramount importance is 
that Jocelyn has always been taught to the grade level she is 
enrolled in alongside her peers. Accommodations have allowed 
Jocelyn to access the grade level content, and even above grade 
level content. In fact, starting as a freshman and continuing 
throughout her 4 years at East High School, Jocelyn took honors 
and AP classes in addition to her regular classes.
    It was an amazing special education teacher, Carrie 
Szumnarski, who helped Jocelyn navigate some challenging 
situations along the way. For example, when some of Jocelyn's 
teachers were unfamiliar with dyslexia, Jocelyn, Carrie, and I 
helped educate them to dispel the myth that dyslexia is a sign 
of a low IQ.
    Or when some of Jocelyn's teachers were reluctant to give 
her accommodations, Jocelyn used the self-advocacy skills 
Carrie helped her develop to explain what accommodations are 
and why she needed them.
    When some of Jocelyn's friends joked around about being 
dyslexic when they made mistakes reading aloud in class, 
Jocelyn used that opportunity to share that she was dyslexic 
and explain to them what it was like to be dyslexic.
    Throughout our journey we have used all of these 
experiences to help others understand what dyslexia is and, 
more importantly, what dyslexia is not. Resources like the 
Understood.org and the National Center for Learning 
Disabilities have helped us along the way. These last 13 years 
have taught me that while the educational system is not created 
with dyslexics in mind, with the right information, training, 
and support, students with dyslexia can thrive.
    I can say that I am a better mother and person because of 
our journey and that Jocelyn's future is limitless because she 
is an amazing young woman with much to give the world.
    [The prepared statement of Ms. Hanrath follows:]
                  Prepared Statement of April Hanrath
    Good Morning Chairman Alexander, Ranking Member Murray, Senator 
Cassidy, Senator Mikulski, members of the HELP Committee, fellow 
witnesses, and attendees.
    Thank you for giving me an opportunity to share my family's story 
of living with dyslexia.
    My name is April Hanrath. I am the proud mother of Jocelyn, who is 
a senior in high school in our hometown of Salt Lake City, UT. I am 
also a Parent Advocate with Understood, a free comprehensive online 
resource for parents of children with learning and attention issues.
    I am honored to share our journey with dyslexia as we navigated 
through the educational system in Utah.
    But I also recognize that we are not alone in this journey.
    Over 2 million children have learning disabilities, most of whom 
struggle with reading. And the National Center for Learning 
Disabilities estimates that another 15 percent of students struggle in 
school due to an unidentified learning or attention issue.
    I sit before you eager to tell our story but hopeful you will have 
an opportunity to meet parents from your States who face similar 
challenges and successes.
    Through my testimony, I hope you will hear 3 messages come through 
loud and clear:

    <bullet> First, it is critically important to identify learning 
disabilities like dyslexia in early elementary school.
    <bullet> Second, we must support general and special educators by 
giving them training about dyslexia and learning disabilities, co-
occurring issues, and necessary accommodations.
    <bullet> Third, and most importantly, all of us must have high 
expectations for students with dyslexia. Policymakers, educators and 
families alike must recognize that students like Jocelyn are fully 
capable of excelling in school and college.

    My daughter, Jocelyn is proof that when you hold students with 
dyslexia to high standards and provide them with the tools they need to 
succeed, they are able to fulfill their goals and dreams.
    Let me tell you a little about Jocelyn, who is sitting right behind 
me.
    Jocelyn is a driven, bright young woman who has excelled in school 
and soccer. In everything she does, she holds herself to a high 
standard; and failure has never been an option for her.
    Yes, Jocelyn has learning disabilities, as she is dyslexic, but she 
has never used her challenges as an excuse to not achieve. In fact, it 
has only motivated her to work harder.
    Next month, Jocelyn will graduate high school with a GPA of over 
3.7. Next year she will enroll in Highline Community College in 
Washington State with a soccer scholarship and an internship with the 
Seattle Reign, the professional women's soccer team.
    After that, she plans to finish college at a 4-year school to earn 
her degree in sports management with a sports psychology minor.
    To support her goals, I am proud to say that Jocelyn received the 
2016 Allegra Ford Thomas Scholarship from the National Center for 
Learning Disabilities.
    That's Jocelyn now--but over the last 13 years, we've had our ups 
and downs.
    When Jocelyn was in fourth grade, she was struggling with reading 
and started becoming withdrawn from school.
    At the end of fourth grade, Jocelyn was evaluated for special 
education and found to have an above average IQ with significant 
dyslexia, poor fine motor skills, and severe test anxiety. She has also 
had challenges with writing, known as dysgraphia; keeping herself 
organized and managing time, known as executive functioning; and 
difficulty with focusing, like ADHD.
    Looking back, I wish Jocelyn's needs were addressed earlier than 
4th grade, a time when reading is an integral part of nearly every 
class in school.
    Starting in 5th grade and largely continuing to today, Jocelyn has 
received accommodations like extra time, oral testing and using a 
computer rather than having to hand write assignments.
    These accommodations have made a huge difference for Jocelyn 
because they allow her teachers to teach her in a way that works for 
her. And they allow her to show what she knows in a more accurate way.
    But for me, as her mother, what is of paramount importance is that 
Jocelyn has always been taught to the grade level she is enrolled in 
alongside her peers. And, accommodations have allowed Jocelyn to access 
the grade level content, and even above grade level content.
    In fact, starting as a freshman and continuing throughout her 4 
years at East High School, Jocelyn took honors and AP classes in 
addition to her regular classes.
    It was an amazing special education teacher, Carrie Szumnarski, who 
helped Jocelyn navigate some challenging situations along the way.
    For example:

    <bullet> When some of Jocelyn's teachers were unfamiliar with 
dyslexia, Jocelyn, Carrie and I helped educate them to dispel the myth 
that dyslexia is a sign of a low IQ.

    Or:

    <bullet> When some of Jocelyn's teachers were reluctant to give her 
accommodations, Jocelyn used the self-advocacy skills Carrie helped her 
develop to explain what accommodations are and why she needed them.

    And:

    <bullet> When some of Jocelyn's friends joked around about being 
dyslexic when they made mistakes reading aloud in class, Jocelyn used 
that opportunity to share that she was dyslexic and explain what it's 
like to be dyslexic.

    Throughout our journey we have used all of these experiences to 
help others understand what dyslexia is--and importantly what it isn't. 
Resources like the Understood.org and the National Center for Learning 
Disabilities have helped us along the way.
    These last 13 years taught me that while the educational system is 
not created with dyslexics in mind, with the right information, 
training and support for students with dyslexia can thrive.
    I can say that I am a better mother and person because of our 
journey and that Jocelyn's future is limitless because she is an 
amazing young woman with much to give the world.

    Senator Cassidy. Thank you.
    I get to ask questions first. We each have 5 minutes.
    Dr. Eden, in your written testimony, you talk about how 
your daughter didn't want to take that ``stupid test.'' She 
didn't want to do it. There's kind of a theme here that all 
these children who are dyslexic will say that they are--there's 
this anxiety, et cetera. She actually read adequately so that 
she was not identified as needing intervention. Once you had 
the intervention, she went from 16th percentile to 75th 
percentile. I'm struck that she could have kind of moved around 
in the middle, never being recognized. It was only the 
concerned parent that was able to do so. Would you elaborate on 
that?
    Ms. Eden. Senator Cassidy, once you have children, you 
learn all sorts of things that you thought you knew as a 
researcher. One of the things that I learned is that the kind 
of testing that we do in the laboratory is very different from 
the kind of testing that goes on in the schools.
    A child who has strong vocabulary skills can do very well 
in our school systems, and a child who is high-achieving 
otherwise can look OK when they're reading text with pictures 
next to it. When you put them on standardized tests the way we 
use in our research to really understand fully all the 
different facets of reading, the different aspects of reading, 
you can see where there are weaknesses, and you can see that 
those are the weaknesses that are interfering with her ability 
to learn and read the material that she is being given.
    One of the things I certainly learned is it's such a 
complicated field, and for a parent, even a parent like me, who 
has served as the president of the International Dyslexia 
Organization, who runs a brain imaging center, I was stunned at 
how confused I was between the difference of what I saw in my 
child at home and in the school in using the kinds of testing 
that I was familiar with. People need to understand what those 
different things are and how we use all those different sources 
of information to identify and help our children.
    Senator Cassidy. Dr. Shaywitz, if the woman who does the 
research and is the president of the organization is confused 
regarding her daughter--I have a daughter, too, so maybe that's 
just an issue with daughters. That said, it kind of begs the 
question whether we should allow this to be discovered by a 
teacher observing, or whether it should be something we should 
screen for. How difficult would it be to screen children at 
first grade for the presence of dyslexia?
    Dr. Shaywitz. I don't think it would be difficult. It 
should be mandatory. Too many children are being missed. As I 
showed in the slide, we reported in October on the basis of a 
longitudinal study that the achievement gap is not only present 
in first grade, but it's very large and it doesn't go away. 
There are many different----
    Senator Cassidy. That's not a reading gap. That is an 
achievement gap.
    Dr. Shaywitz. That's correct, and it can be done--we at the 
Yale Center are just in the process of publishing a screening 
instrument that teachers can use and that takes a few minutes. 
There are other methods. The important thing is to think of 
it--it's not a developmental lag. It's not going to be 
outgrown. It's not because he's a boy or because he has a 
December birthday.
    Too many children are missed, and that's really a tragedy, 
because, as we heard Ameer so eloquently talk about, what it 
feels like when you're in school and you have to read aloud and 
the reactions of the other children. Teachers have to recognize 
that and also listen to parents, because parents see the child 
and see the struggle when they get home. I don't think it would 
be difficult at all. The important thing is awareness, to be 
aware that it's already there, and then to take action.
    Senator Cassidy. Ameer, you were in public school--and Ms. 
Hanrath. Teachers--your child, you, were having difficulty 
reading. How did your teacher intervene, or did she or he 
intervene?
    Mr. Baraka. I never had a teacher to intervene. I was just 
sort of passed on from grade to grade to grade, and looking 
back, how awful that was, because someone should have taken 
notice that I could not read. I see those same patterns right 
now today. I deal with kids where I talk to the principal about 
kids who have dyslexia, and they can't do anything about it 
because there's no resources for those kids. Those kids are 
either kept back or just passed along, just like I was.
    If we don't address this problem, I think we'll see a 
tremendous surge in violence, a tremendous surge in 
incarceration. If we do address this problem, we can curtail 
the prison population and violence as well.
    Senator Cassidy. Ms. Hanrath, were your child's teachers 
prepared? How did they respond?
    Ms. Hanrath. My child's teachers did not even recognize she 
was dyslexic. Her first three teachers were first year 
teachers, and so they viewed her, the way that she read, as 
just the fact that she was young in her classroom. Her fourth 
grade teacher viewed Jocelyn as a behavior problem and said 
nothing about her dyslexia. She felt that Jocelyn perhaps was 
not as bright as the other children, and I knew that couldn't 
possibly be true. I actually took it upon myself to have her 
tested, and that's when I found out she was dyslexic.
    Senator Cassidy. I got you.
    Senator Mikulski.
    Senator Mikulski. Each and every one of these testimonies 
were so compelling, and we could spend all morning just talking 
to one of the people at the table. I want to thank you, really, 
for your contribution already.
    I'd like to turn to Mr. Baraka. Sir, your testimony is so 
much like what we see in Baltimore. Dr. Mahone works at Kennedy 
Krieger, and if you look out the window at Kennedy Krieger over 
in east Baltimore, on one side, 12 blocks down, you look toward 
the harbor, and people are doing very well and very prosperous. 
If you look on the other side, it's usually in our poor 
neighborhood where drug dealing is going on.
    We have real issues in Baltimore, and we're always accusing 
our schools as failing and our kids as failing. What you lived 
through is kind of what we hear every day.
    Right, Dr. Mahone?
    My question to you is here you are. You were a rough and 
tumble guy in the streets and neighborhoods, and they were--the 
streets became your friend, and the streets became your 
teacher. What would have helped you, and when, to make a 
difference?
    Mr. Baraka. In my opinion, early detection would have 
definitely deterred the road that I chose. Like I said, my 
brother and my sister were excellent students. They both went 
off to college.
    If I had someone to put me in a program, such as the school 
that Senator Bill Cassidy and his wife has, I would have 
definitely--as I was walking from the hotel--I was telling a 
gentleman earlier--and I'm walking to the Capitol, and I'm 
looking at this vast amount of property and these big 
buildings, and I said, ``Oh, my God. I could have been here.'' 
I could have been sitting where you are had someone caught me 
early on. I always knew----
    Senator Mikulski. You're a Louisiana guy. You would have 
been him.
    Mr. Baraka. Yes, yes.
    [Laughter.]
    I don't want to take his job. I always felt as though I was 
someone, but it stayed dormant. When I got to prison, I guy 
told me how brilliant I was, because I was telling him about 
how----
    Senator Mikulski. Who was this guy?
    Mr. Baraka. His name was Norman Spooner. He was an 
incarcerated person. I was telling him how I would get drugs 
from California and bring them down, et cetera, and he said, 
``Man, you know what? You're brilliant. You are somebody.''
    Senator Mikulski. You are brilliant.
    Mr. Baraka. I never heard someone tell me that I was 
brilliant and that I was somebody.
    Senator Mikulski. In prison, you read Malcolm X.
    Mr. Baraka. Yes.
    Senator Mikulski. How did you get started in prison? Was 
there an evaluation of you in prison?
    Mr. Baraka. Yes.
    Senator Mikulski. You read Malcolm X?
    Mr. Baraka. Yes. When you enter into a prison, you have to 
be tested. Everybody has to be tested, and I was found to be on 
a third grade level. I read Malcolm X's book. I floundered 
through that book, but I understood what Malcolm stood for, and 
I understood what Malcolm did. I was facing a 60-year prison 
sentence, and I said to myself--I said, ``God, if I get 60 
years''--which I was guilty--I said, ``I'm going to educate 
myself some way, somehow, because I want to emulate Malcolm X. 
I want to do something for my people, because he did it.'' I 
saw that many people behind me were taking the same pathways, 
and it was a burden on me to get out of prison and tell young 
people, ``This is not the way. This is not the way.''
    Senator Mikulski. Did prison teach you to read?
    Mr. Baraka. That's where I began----
    Senator Mikulski. Were you self-taught in prison?
    Mr. Baraka. I was self-taught in prison, yes.
    Senator Mikulski. There wasn't a program that said, ``Well, 
this guy Baraka is pretty smart. He's reading at a third grade 
level.'' Was it, again, the sort of bigotry of low 
expectations--African American male, drug dealer, 
manslaughter--oh, we know that profile? You know how that 
narrative goes.
    Mr. Baraka. Yes. Absolutely. Absolutely.
    Senator Mikulski. That stereotypical narrative.
    Mr. Baraka. Absolutely.
    Senator Mikulski. Did anybody say, ``OK. We've got that. 
Let's find out why.''
    Mr. Baraka. No. There was no hope for me there.
    Senator Mikulski. Was this a State prison?
    Mr. Baraka. Yes, a State prison.
    Senator Mikulski. Do you feel--and this isn't meant to be 
peppering you. Just in my short time here left in the 
questioning, do you feel--because, unfortunately, prison is at 
the end of the pipeline. We would want this early screening so 
much sooner. Do you feel that for many of our men and women in 
prison, this is one of the areas that--if we want to prevent 
recidivism and do second chance, along with criminal justice 
reform--that, really, different kinds of evaluation when you 
come into prison would be helpful?
    Mr. Baraka. Absolutely.
    Senator Mikulski. A real intervention.
    Mr. Baraka. Absolutely. This is a Titanic area, because, as 
I said, many guys in prison cannot read. You can make a lot of 
money when you can write letters. A lot of guys--there are some 
guys who can read and write, and they make a lot of money 
writing letters for other guys. A lot of guys in prison are--I 
don't know if they're dyslexic, but they cannot read.
    What I did was I wrote down words. I recall my lawyer 
telling me about the circumstances of my case, and he gave me a 
pen, and he said, ``Write circumstances down.'' I could not 
spell that word. Every word that I know--I don't know about 
phonics. I can't break words down. I know that word because 
I've written that word down over--and said that word over and 
over and over again. I don't know anything about phonics. It's 
completely--it's out of my mind.
    Senator Mikulski. It's not your thing.
    Mr. Baraka. It's not my thing. I don't know it. I know 
words because I've written that word down. I had a pile of 
words I would write down every day, just stacks and stacks of 
words, and go over them day to day.
    Senator Mikulski. And then you memorized them.
    Mr. Baraka. Then I memorized the words. If we could get 
something like this in a prison institution and help men to 
build on their phonics, we could--again, as I said earlier, we 
can reduce that, because it gives you--when I learned to read, 
there was this joy, there was this hope that I am somebody, 
that I can do something.
    It gives you encouragement. It gives you motivation to say, 
``You know what? I can read.'' That's one of the most powerful 
things in the world to do, is to read, to read. It is a 
blessing to read. Now that I read, I read all the time. I'm 
reading Sally's book. I'm excited about reading.
    Senator Mikulski. Thank you very much. My time is up. I 
have many other questions for the witnesses. I hope we get a 
second round.
    Senator Cassidy. Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. Thank you very 
much for holding this hearing, and thank you to the panel for 
your excellent testimony.
    Mr. Boies and Ms. Hanrath talked about the importance of 
early detection, and Mr. Baraka shared his views about the cost 
of not having early detection. I remember extremely well my 
parents sitting me down and telling me that I was going to 
repeat the second grade and my deep disappointment that my 
friends were leaving me behind. I remember the year I spent in 
that second grade classroom tracing letters that were glued to 
cardboard cards.
    In the end, that hard work--as Mr. Boies talked about and 
Mr. Baraka also talked about, that hard work and the 
intervention allowed me to compensate for my dyslexia, and I'm 
sitting here today, partly, because of that early detection, 
and I wonder if the panel could talk a little bit about how we 
do a better job--we're doing a lousy job of detecting this--and 
how we share best practices across school districts and 
schools, and whether a far greater commitment by this country 
to early childhood education, a high-quality early childhood 
education, might actually help us wrestle with this problem as 
well.
    I don't know who would like to go first. I'm happy to--Dr. 
Mahone.
    Mr. Mahone. I agree that early identification is really 
critical, and I agree that it should be something that all 
school districts have in place, and the truth is that it isn't 
happening in many school districts. And when it is, it 
sometimes isn't happening effectively.
    I agree that it needs to be at the level of the local 
school system to implement it, but it also needs to be at the 
level of the leaders of those school systems to make sure it's 
implemented with fidelity appropriately and developmentally 
appropriately and to be able to translate the material that has 
been generated by the researchers here and at other places into 
the hands of the people who would be screening four-and 5-year-
olds.
    There's also the issue that we are moving toward more 
universal pre-K, and the dearth of training that we see in 
appropriate screening for dyslexia at the level of 5 years old 
or 6 years old--it's even more challenging when you get 
younger--and we don't have in place as good of programs for 
preparing our pre-K teachers to be ready to screen and work 
with children who may be experiencing some of the risk factors 
and some of the early signs of dyslexia that emerge sometimes 
as early as 4 years old and before and can be detected. Our 
pre-K teachers and our kindergarten teachers need to be trained 
in developmentally appropriate methods.
    Senator Bennet. Dr. Shaywitz.
    Dr. Shaywitz. Before we do any of that, there has to be 
greater public awareness of what dyslexia is. It's not just 
training people and administering a measure, but to understand 
the whole of it.
    You mentioned you don't know phonics, but you read.
    It becomes very, very important for teachers--as several of 
us here are physicians, we go to medical school, but then we do 
internships and residencies, where we take care of people under 
supervision. I think, in a way, that the education of educators 
needs to expand so that they learn in class, but they also 
learn from experience, so they see people who are dyslexic are 
not stupid and are not ignorant, and to be able to then use 
screening measures--they are available--and not to look at 
reasons--oh, well, this child is this, and this child is that--
but to actually use the screening measures themselves.
    Senator Bennet. Thank you. I'm running out of time here. As 
a former school superintendent, I also listened to some 
testimony today, from Dr. Mahone, about the importance of 
treating the whole child. Many children with disabilities talk 
about how they dread going to school, and they experience a 
level of stress, we heard about from Mr. Baraka, as a result of 
their disability.
    I wonder whether you could talk a little bit about what the 
emotional and mental effects of learning disabilities are in 
young children and how we can better support the full range of 
children's needs.
    Mr. Mahone. Thank you. It's complicated because children 
with dyslexia can present with a complicated picture, including 
associated concerns and conditions ranging from anxiety and 
lack of motivation, and when you experience failure, it gets in 
the way of motivation. There are a number of risk factors that 
we know that go along with dyslexia, along with a number of 
conditions, real other conditions that seem to coexist with 
dyslexia that complicate the picture.
    It isn't as simple as just looking at the reading and 
looking at the experience of this child and why a child might 
be failing. A child might be failing for reasons that go beyond 
the dyslexia, including living in poverty, having poor 
opportunities to have really quality instruction, having other 
kinds of psychopathology that may interfere with learning in 
other ways. That's not dyslexia. It's something different, but, 
nevertheless, the result is poor achievement.
    Senator Bennet. I'm out of time, Mr. Chairman, so I will 
yield back. Thank you.
    Senator Cassidy. Thank you.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman and 
Senator Mikulski, for having this hearing.
    Let me just add a story to the mix here. It's a constituent 
from Newtown, CT. She noticed early on that her son, Brian's, 
preschool years--during his preschool years, he had a speech 
delay and that Brian struggled to learn letters and early 
literacy skills in kindergarten, first, and second grade. 
Despite her concerns, and, frankly, her family's history of 
dyslexia, her son didn't receive an evaluation for special 
education services until the end of third grade.
    This is standard, in part, because tests don't start until 
third grade. At this point, Brian's teacher told her that he 
didn't make any progress in reading between second and third 
grade, and he was way behind his peers already. Once he was 
evaluated, he was found to have ADHD, dyslexia, but also a high 
IQ, and he received specialized instruction and accommodation, 
but learning to read was rocky.
    Eventually, Brian was able to decode words and read. He 
still struggles today. He's 19 years old, and he's doing well. 
He's studying mechanical engineering at the Rochester Institute 
of Technology, and he's a competitive speed skater. He's 
accomplished. He had to work and his parents had to work 
especially hard, because it took so long and they had to fight 
so hard to get him the appropriate programming.
    I'm totally on board with the idea that we need to do 
better, that this is a crisis, as Dr. Shaywitz says, and I hear 
it every day in Connecticut. I guess here's my only question, 
and I'll pose it maybe first to Dr. Shaywitz and then ask Dr. 
Eden and others to remark on this.
    What we know--and I'm sure it's been said--is that 80 
percent to 90 percent of students with learning disabilities 
have dyslexia, and it's also, often co-occurring with other 
disabilities. How do we elevate and do better by way of 
treating dyslexia without minimizing other disabilities that 
kids walk into school with? How do we make sure that we do 
everything that you want us to do without picking dyslexia out 
of the pot of disabilities that kids are struggling with and 
have this debate end up in a result that robs Peter to pay 
Paul?
    I know that that's a tension here, right? That's a tension, 
and so let me ask, in particular, Dr. Shaywitz and Dr. Eden to 
talk about that. How do we focus the attention on dyslexia 
while not misunderstanding the fact that there are a lot of 
other disabilities still that we can't ignore at the expense of 
tackling this epidemic?
    Dr. Shaywitz. That's a great question. First of all, let me 
say that every child should get what they need. What's really 
important is that this hearing is about science informing 
education. When we have the science, we have to use it. If we 
have a drug for breast cancer and not for pancreatic, we can't 
say, ``Well, we can't use it until we can treat all the 
cancers.'' We have to use it when we have it.
    In the case of dyslexia, we have the knowledge. In my own 
mind--you're aware, Senator Murphy, that two children committed 
suicide in Connecticut because of their dyslexia. They were 
bright. They were in special ed. They were teased. They saw no 
future. We have to use the knowledge we have.
    On the other hand, there are other disabilities, and 
they're important. We have to make sure the science progresses 
so it teaches us what we need to know to give the better--I 
would say optimal, but I know in policy it's the appropriate 
education to these children. We shouldn't hold the dyslexic 
children back because we don't have the knowledge to treat the 
others. We have to make sure we are maximizing the education of 
all the children who have disabilities.
    As a mother and as a grandmother, I know how I worry and I 
care about my children and grandchildren, and mothers of all 
children, and fathers, feel the same way. We have to use the 
knowledge we possess and have to make sure we do it for all 
disabilities. When the knowledge isn't there--and for many of 
the disabilities, it's not there yet--we have to make sure that 
we work to ensure that we acquire that knowledge.
    Senator Murphy. Dr. Eden, a quick response?
    Ms. Eden. Thank you, Senator Murphy. The other thing to add 
here is that the focus on dyslexia in research has really 
opened a lot of eyes in terms of understanding about teaching 
reading in general. I would say that many children have 
benefited by there being more information about best practices 
about teaching reading.
    Also dyslexia really serves as a model of understanding 
disorders more generally. How do you work with the school 
system? How is it that the research that has shown the kinds of 
measures that you can use to identify dyslexia early--why is it 
that they are in the hands of teachers, and when the teachers 
are given those and are using them, they're not using them the 
way the researchers intended? There's a communication--there's 
a gap here, that the tests are there, but they're not being 
implemented.
    On the other hand, there are some individuals who are 
getting the help that they need. They go perhaps for expensive 
programs, but they also go for programs that are expensive and 
don't work. We have another very interesting problem here, 
which is that in the absence of knowledge, in the absence of 
research, in the absence of educating people, in the absence of 
people understanding what this is, parents will take it upon 
themselves to try everything they can on the Internet, often at 
a high cost and with no benefit to the children.
    These are all problems that you have with any kind of 
situation where a child is failing to reach their potential. 
Dyslexia serves as a model to help us understand the full range 
between education, the role of the parents, the role of the 
teachers, and the role of private enterprise, and how people 
need to be educated so those things can be optimized to 
actually help the child.
    Senator Murphy. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Cassidy. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman, and thank you, 
Senator Cassidy and Senator Mikulski, for your passion, for 
bringing this issue up, and for your advocacy on behalf of 
those who are affected by it.
    One area that I know that all of us are very much in 
agreement on is that we need education for biomedical 
innovations, the need for increased investments in research in 
this area. We've already learned a lot about dyslexia from 
research funded by the Department of Education, the National 
Science Foundation, the National Institutes of Health through 
the National Institute of Child Health and Human Development, 
which was a vision of President Kennedy.
    Investments in research through these agencies mean that we 
now have some evidence-based interventions that are leading to 
improved educational outcomes for our kids with dyslexia across 
the country. There still is a lot that we don't know.
    Dr. Mahone, I'd like to ask you about this. How would 
greater Federal investments in research like yours into the 
neurological underpinnings of dyslexia help us both intervene 
earlier and improve outcomes for our kids?
    Mr. Mahone. Thank you. We are on the verge of treating 
educational research and the translation between biomedical 
research and education in the same way we are looking at 
translational research in the field of medicine, meaning that 
we've learned a lot about the condition. We've learned a lot 
about the neurobiology of the condition, about the genetics of 
the condition.
    The next question is: How do we translate what we've 
learned into practice that really gets at the root of the 
problem? We are on the verge of that right now. We have come a 
long way with a tremendous amount of support from the Federal 
Government to get to the research that we have right now. Going 
forward, we need continued support in order to continue to 
translate that into the day-to-day practice of our children and 
improve their lives.
    Senator Warren. Good. Thank you. I really appreciate you 
talking about this. Whether we're talking about Alzheimer's or 
ALS or cancer or dyslexia, we know that one of the smartest 
things that the Federal Government can do is invest in 
research. The NICHD supports neuroscience and learning 
intervention research to determine how to identify dyslexia 
early on and how to support the needs of students with learning 
disabilities.
    Over the last 10 years, Congress has decimated the budget 
for NICHD, cutting its purchasing power by nearly 20 percent. 
Researchers are being limited because Congress won't give them 
the resources that they need. Right now, the Senate faces a 
critical choice, whether to come together in a bipartisan way 
to provide sustained, stable, and targeted increases for 
medical research at the NIH, or just to say, ``It's too hard. 
Let's go on summer vacation.''
    Senator Cassidy and I have talked a lot about the 
importance of NIH funding, and I know we both agree on the 
urgent need to find a bipartisan way to get this done. I hope 
we can get there, because today's hearing is just one more 
example of why fixing our research funding problem is just too 
important for us to walk away.
    Mr. Chairman, I have a second round of questions, but I'm 
glad to put it off and wait my turn, or I can do it now. Your 
choice.
    Senator Cassidy. We're going to have a second round.
    Senator Warren. Then I'll hold off.
    Senator Cassidy. You have a minute and 15 seconds.
    Senator Warren. I'll yield back and go to my next round. 
Thank you.
    Senator Cassidy. Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Senator Cassidy and Senator 
Mikulski for having this hearing. We're grateful to have this 
opportunity. We don't often have the kind of opportunity we 
have today to focus on one issue in a very intensive way and to 
have a--we have a lot of great panels here, but this is, 
indeed, an all-star panel for a lot of different reasons. We're 
grateful for the opportunity.
    I won't get to each of our witnesses, but I did want to 
start with you, Ms. Hanrath, to commend you for taking the time 
to be here today, for your testimony, and to bring your own 
personal story and that of Jocelyn to this committee. We learn 
a lot when we read about public policy and analyze data, and 
that's part of the learning process for us. It's all the more 
significant when you can bring your own personal story.
    Jocelyn, I want to say to you congratulations on both your 
academic and athletic achievements. I always wanted an athletic 
scholarship in college. It just wasn't in the cards.
    [Laughter.]
    It's difficult to do one--to be recognized for one versus 
the other. To have both academic and athletic achievement is 
significant.
    I want to ask you a more technical question about 
transition to college, transition to higher education. I did 
want to focus, first of all, on your three points, because 
sometimes we leave here and we've learned a lot, but then it 
begins to fade over time. It's important to remember those 
three concepts: identify, train, and set high expectations, all 
three critically important.
    If I were adding a fourth, I'd say try to get a good mom, 
because I know that some children never have that opportunity 
to have a mom or a dad or a caregiver who is so engaged as you 
have been and to be that advocate. You've turned her into her 
own self-advocate based upon your testimony. We're grateful for 
that. We do want to bear in mind those three core messages of 
identify, train, and set high expectations.
    My question is more technical. My staff and I have heard 
from folks in Pennsylvania about this transition from high 
school to college and having strong transition services 
important to students with a learning disability. What's your 
experience with that? What can it tell us about either--not 
just your own experience, but what you would hope we would do 
to fill in some of the gaps if there are some?
    Ms. Hanrath. Thank you, Senator, for the question. First of 
all, our experience is a bit different. Because Jocelyn is an 
athlete who is wanted, the transition has been very simple. We 
immediately started talking to the special education 
department, who was very open to whatever Jocelyn needed. They 
were willing to accept her IEP from high school, which is not 
common.
    At so many colleges, the students are asked to go back and 
re-test in order to receive accommodations in college, which 
was shocking to me, because I am not a doctor, but when Jocelyn 
received her diagnosis, one of my first questions to the 
neuropsychologist was: If I get Jocelyn a lot of help, will she 
stop being dyslexic? She said, ``No. She'll always be 
dyslexic.'' I couldn't understand why an IEP in a high school 
would not be adequate for a college to accept that as a 
learning disability.
    In Utah, for example, Jocelyn's special educator has a 
caseload of 40 students. Her transition work is basically a 
checkbox. Once a year, someone comes in, talks to Jocelyn for 5 
minutes and says, ``Are you going to college? Are you taking 
classes? Good job,'' check the box and that's all. There is not 
really anything given to us in Utah as far as transitioning to 
college.
    Once again, because of Jocelyn's athletic accomplishments, 
when we talked to the athletic department, whatever she needed, 
she could have. It was very simple. It is not that simple for 
most kids, and it's impossible for them to, many times, re-test 
because the testing costs so much money to be able to access 
special education in college.
    Senator Casey. I appreciate that perspective. What we often 
try to do here by way of legislation but also by way of 
something much more substantial in the case of Every Student 
Succeeds--it was a great effort by this committee to take No 
Child Left Behind and reform it, shake it up, and change it, 
and a lot got done.
    I was just looking at a list of things that might be 
applicable here: a center to develop assessment tools to 
support the identification of students with disabilities, 
including dyslexia; evidence-based instruction materials; 
professional development. We have the outlines of it, but I 
also want to make sure that we're not missing a piece when it 
comes to that transition, but, in particular, having that IEP 
not be adequate and having new evaluations done which might be 
difficult for a lot of families.
    I'm out of time, but maybe what I'll do is pose a question 
for the record to the other witnesses so we can get at this 
issue.
    Mr. Chairman, thank you very much.
    Senator Cassidy. We'll have a second round, and I'll begin.
    Mr. Boies, first, I'm struck. In your written testimony, 
you speak about how your dad kind of would verbally teach you 
just a Socratic method, and so you didn't need to read, and you 
could just kind of download everything your dad knew about 
history. That sort of thing. Then you describe how your son for 
10 years had 4 hours of tutoring every day. Now, that takes 
some courage and determination.
    In your last paragraph, some students with families that 
can afford the best; they're fortunate to have their dyslexia 
identified, understood, and treated early. The vast majority 
are not so fortunate, and their future contributions are at 
risk.
    Senator Warren and I mentioned briefly this is really an 
issue of middle-class economic opportunity. Your thoughts on 
this?
    Mr. Boies. The right to an education is one of the most 
basic civil rights that we have. That right should not be 
inhibited by the economic circumstances of a child's family. I 
have been very fortunate, and I could give my children the 
opportunity to be tested early, to get tutoring, to have all of 
the advantages that modern science can give.
    Most children are not that fortunate, and we as a country 
are terribly wasting those resources. It is unfair to the 
child, and it is a disaster for this country in a global world 
to lose those resources. By identifying people early and by 
giving them the help and the hope that they need to succeed, we 
can give them that basic civil right of a decent education, and 
we're not doing that now.
    Senator Cassidy. I'm struck. It's not just someone like Mr. 
Baraka, who obviously has a tragic story but finished well. 
It's also Dr. Eden's daughter, who was a promising girl who was 
going to be allowed to achieve less because they did not know. 
If we have 20 percent and Dr. Mahone said there's not many 
districts screening. I'm not sure there's any districts 
screening. As best we can tell, there's not a single district 
that screens all incoming students for dyslexia.
    If you've got a condition affecting 20 percent in one way 
or another--Mr. Boies, you're an attorney. You spoke of civil 
rights. Is it excusable that we're not screening? This is not 1 
percent or 2 percent. The cost-benefit ratio here is pretty 
substantial.
    Mr. Boies. Senator, it's inexcusable, because we have the 
technique to do that. We can do that in a cost-effective way. 
It's a question of education. It's a question of commitment. We 
could do this for a fraction of what we spend on lots of other 
things that are much less important and much less critical to 
children and to our country. We have the ability to screen. We 
know how to do it. We could implement it in a cost-effective 
way. We're just not doing it.
    Senator Cassidy. I know that it costs about $50,000 a year 
to incarcerate somebody. If you broke down the siloes and 
somehow said, ``Well, heck, we could redirect some dollars,'' 
it would make quite a difference.
    Mr. Boies. It is the definition of penny-wise and pound-
foolish.
    Senator Cassidy. Yes. Your child, if I may ask--was he 
identified early by a teacher, or was it just because of your 
family history that you knew to watch for early signs of 
dyslexia?
    Mr. Boies. It wasn't so much the family history. He was a 
twin, and his brother, Jonathan, was very verbal and in 
kindergarten was reading and very phrasal, and Christopher was 
struggling terribly. The sharpness of that comparison led us to 
have Christopher tested, and when Christopher was tested, that 
was the time I was first diagnosed with dyslexia.
    That testing led to the tutoring, led to the help, led to 
the hope, because he knew what it was. He knew it didn't affect 
his intelligence. He knew he could conquer this, and he did. As 
I say, he performed well in high school. He performed well in 
college, although we had a hell of a time getting into it, and 
he performed great in law school, although, again, his 
standardized tests--because he did not get accommodations--
predicted that he would fail. He graduated from Yale Law School 
with honors. His LSAT would have predicted that he couldn't 
have succeeded.
    Senator Cassidy. The standardized testing option. I thought 
what you said was very provocative. I'll defer now to Senator 
Mikulski.
    Senator Mikulski. Thank you very much. I want to associate 
myself with the remarks of Senator Warren in terms of the need 
for more biomedical research. Also I want to go back to my 
original remarks. We need to put that research into action, and 
then when you look at the way we do not fund programs like 
IDEA, then groups with learning challenges are pitted against 
each other for resources, the very things that we just talked 
about here earlier. We need a multifaceted approach here, just 
like we do with the children.
    Dr. Eden, let me go to some of your research findings. I 
was struck by what you said, that there were different 
neurological aspects to girls compared to boys. Could you 
elaborate on that? In my early days in the Senate when I came 
here, women were not included in the protocols at NIH. This was 
1986, not 1886. Working together across the aisle with Dr. 
Bernadine Healy, Dr. Ruth Kirschner, and so on, we were able to 
change that, which validates exactly this.
    Could you tell us, though, what your findings are? Because 
you'd think the brain is the brain, that it's kind of--the 
brain is gender neutral.
    Ms. Eden. Thank you, Senator Mikulski. This is an example 
where brain imaging research really has a lot to add and we can 
get some insight, because brain imaging research has shown for 
years that the brains of women and men and boys and girls are 
different. They're different in their anatomy. There's 
difference in the hormones that bathe the tissue, and it also 
goes hand in hand with some of the differences that we observe 
in boys and girls as they develop early on.
    The important part here is to recognize that early 
research, for reasons that aren't fully clear, often did focus 
more on boys. The deductions that were made from that research 
were that these were findings that were true for all 
individuals with dyslexia, and they were generalized to all 
people with dyslexia.
    We're beginning to focus more on sex-specific differences, 
and the NIH now requires that when we submit research grants, 
that we consider biological variables such as sex so that we 
have very specific questions about--do the kinds of questions 
we're asking, the hypothesis that we're posing in our 
research--are they also addressing the issue that there are 
sex-specific differences, and is that part of our hypothesis. 
That's tremendously important.
    Senator Mikulski. How has this manifested itself?
    Ms. Eden. What the real point here is, is that we don't 
fully understand how it's manifesting. It could be that--we 
know from cognitive neuroscience that sometimes we observe 
performance in males and females and they appear to be equal. 
Under the surface in the brain, the mechanisms that invoke to 
do those tasks are very different.
    Then you ask the question: What happens if those mechanisms 
then interface with a learning disability? How do the female 
brains respond versus the male brains? We don't really--we 
don't have the answer to those yet, because we haven't done the 
research. Doing more research in that area is really very 
critical, and we'll see a lot more research because of the new 
NIH mandate.
    Senator Mikulski. Thank you.
    I'm going to turn to--let's hear it for the mothers with 
Ms. Hanrath. I'm going to call you like a nighthawk, because, 
obviously, you and other mothers and dads stay up at night, 
kind of cruising the Internet, avoiding scams and schemes, and 
yet trying to come up with approaches. Could you tell us what 
worked for you as a mother, even to know what to do and so on? 
You mentioned the group, Understood. Also, you paid for your 
own testing for your daughter, which was, obviously, extremely 
expensive.
    What did you run into? How can we help--at least a pathway 
for moms and dads--regardless of social class or whatever, to 
do this? Could you elaborate on your personal exploration here 
on how to help your daughter? What helped? What were the 
obstacles? What was your best friend? Was it the Internet?
    Ms. Hanrath. Certainly. At the very beginning, when my 
daughter was actually tested by the school district at the end 
of fourth grade. Her grandmother had died the week before they 
tested her. They came back with the results that she had an IQ 
of about 80.
    Senator Mikulski. Eighty? Eight zero?
    Ms. Hanrath. Eight zero, and that she would not ever 
succeed in school because she was not very bright. I said that 
is absolutely not true, and I found a neuropsychologist to redo 
the testing. Once that happened, then I had to go through the 
phase of--I always thought dyslexia meant you mixed up your 
letters. I had no idea that it was----
    Senator Mikulski. Senator Cassidy, if I may--Ms. Hanrath, 
you said, ``I found a neuroscientist.'' You don't go to 
Craigslist for that, you know? You don't say, ``Oh, well, let's 
go find a neuroscientist, after we get our refrigerator or 
toaster oven fixed.'' Tell me, in other words, how did you do 
that?
    Ms. Hanrath. I did that because I have an older son who 
also has learning disabilities, and he had a specialized tutor. 
I went to the tutor, and I said, ``Who is it that I should have 
my daughter tested by?''
    Senator Mikulski. I see. You were essentially on your own.
    Ms. Hanrath. Yes. It was on my own.
    Senator Mikulski. Did you have, where you live, an 
institution like Kennedy Krieger you could have turned to?
    Ms. Hanrath. No, there really isn't anything in Salt Lake. 
There is a place at the University of Utah with graduate 
students, but I wasn't comfortable with that.
    Senator Mikulski. Right. Here, we have Georgetown to turn 
to. We have Kennedy Krieger. We would have in New Haven the 
Yale Center and the Shaywitzes. But you were on your own, and 
you did this through a tutor.
    Ms. Hanrath. Yes.
    Senator Mikulski. And you got the results.
    Ms. Hanrath. Yes. Then I decided that I had to come up with 
a solution. The neuropsychologist was wonderful. She gave me 23 
pages of accommodations. When I went to my first IEP meeting, I 
took those 23 pages in, and I said, ``I want you to accept all 
of these.'' No one argued with me. It was immediately attached 
to Jocelyn's IEP, and I kept those accommodations, and whenever 
Jocelyn needed a specific one, we invoked the IEP.
    I was fortunate enough to have the money to have her 
tested. Unfortunately, I was not wealthy enough to have daily 
tutoring for Jocelyn, so I had to rely upon the school system, 
but mostly myself, my inventiveness.
    Senator Mikulski. Could we ask about Understood and what 
that meant? Because, you see, what we have here is a path 
that--look at the struggle here. Could you just tell us about 
Understood?
    Ms. Hanrath. I would love to tell you about Understood. I'm 
a single mom. At night, I would wake up. I was worried about 
Jocelyn. I didn't know what to do.
    Senator Mikulski. So you were a nighthawk.
    Ms. Hanrath. I was a nighthawk. I had to be, because I 
wasn't sleeping. I found this incredible website called 
Understood.com, and I could plug in the fact that Jocelyn was 
dyslexic and what age she was, and I could read about it. Then 
there were parent forums and I could talk to somebody at 3 
o'clock in the morning, someone who understood where I was 
coming from and that would get back to me.
    I could watch videos from experts. I could listen to 
archived sessions on dyslexia. I started to become educated, 
and education is the source of all power, and that's where my 
education came from.
    Senator Mikulski. Thank you, Senator Cassidy. You are very 
generous. Thank you.
    Senator Cassidy. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, Senator Mikulski, for your remarks on research 
and the importance of making sure that we have adequate NIH 
funding.
    Also, thank you, Dr. Eden, for reminding us of yet more 
reasons why this research is important.
    I just want to ask--I want to turn to a slightly different 
issue here and talk a little bit more about what we're learning 
from the research and to training teachers for the classroom. 
This is a special topic for me, because I was a special needs 
teacher a long time ago.
    Ms. Hanrath, let me start with you. First, congratulations 
on your daughter's graduation, impending graduation, from high 
school. I know you are very proud.
    Jocelyn, way to go. It is good to have a success story 
here. We're delighted to have you here today.
    In your testimony, you talked about the importance of 
supporting educators by giving them training about dyslexia and 
other learning disabilities. Can you talk just a little bit 
more about how important it has been to you and to your 
daughter to have special education teachers with the tools and 
training they need to support your daughter's learning needs?
    Ms. Hanrath. Thank you, Senator. Without Carrie Szumnarski, 
there was no way we could have navigated through high school. 
She talked to Jocelyn's teachers. She gave Jocelyn confidence. 
She went to meetings with Jocelyn and I. She stood up for 
Jocelyn's rights. She knew things I didn't know. If we did not 
have Carrie, if Carrie was not educated, as I said, I do not 
believe the success would have happened for Jocelyn the way 
that it did.
    I find it really frightening that so many teachers are not 
educated about dyslexia, that they assume that dyslexics are 
stupid people, that they shouldn't expect much of them. They 
need the education. They need to understand that dyslexic kids 
can do amazing things. They think outside the box. They're 
leaders by nature. It doesn't take much for accommodations. 
They don't have to cost a lot of money. Everything isn't high 
tech.
    Please, please, find a way to let all teachers understand 
what dyslexia is and how they can help. It doesn't take much, 
but, once again, it requires an education.
    Senator Warren. Thank you. That's very important, Ms. 
Hanrath.
    Maybe that means I can turn to you, Dr. Eden. How do we 
equip all teachers and all school leaders with the training and 
the development they need to serve students with dyslexia?
    Ms. Eden. Thank you, Senator Warren. That is, of course, 
the big question here, and that's where we will need more 
resources, and we need to make some changes in the way people 
think about their role in all of these things. It's very 
frustrating as a scientist to see.
    There are tests that are out there that predict to a very 
high degree which children are at risk for reading. Those same 
research data have made it into benchmark tests that are in 
schools, in my daughter's school. When you ask the teacher how 
your child is performing on those tests, it turns out they 
haven't looked at those test results, probably because 
somewhere the research fell short in trying to apply this and 
to educate the teachers to use it effectively.
    One of the problems we have in research is that we don't do 
enough to make sure that the findings that we have are 
implemented in a way that they are actually useful. Again, 
you've put in a lot of money. You have the information, but 
it's not going the full length to actually then benefit the 
child who needs those to be identified.
    The other risk that we run here is that if we don't 
continue doing the research--remember, I said we don't have 
enough--we still don't quite understand how dyslexia actually 
comes about. Others will fill that void. Parents are online all 
the time. Doing an evaluation is expensive. You think that's 
expensive. Getting the treatment is really expensive.
    Then you find an alternative. Maybe it's not quite as 
expensive. It's based on something that you can do at home. 
It's quick. You don't have much time. You're trying to feed 
your child. You want them to do something for the little time 
you have in the evening. You use a quick fix. It appears to be 
something that has research behind it. You don't know. You're 
not a scientist. You didn't read the paper. Is it truly 
validated?
    You grab onto another option. You've made a huge mistake. 
You've made a misinvestment. You've used something that 
actually isn't research-based, and if we don't do the research 
to actually investigate these programs, then there's no 
knowledge that we can put out there to guide parents about 
which avenue they should pursue.
    All of these things have to be moved forward hand in hand. 
It's sort of interesting to hear how teachers learn from the 
Understood website things you would think they learn in the 
schools of education, but apparently they don't. Everybody has 
to buy in. Everybody has to understand it's an education, and 
everybody has to be ready to learn together and implement the 
knowledge that we have together.
    Senator Warren. Thank you very much, Dr. Eden. It's very 
important. I know from firsthand experience how much support 
teachers who work with special needs children need, and we owe 
it to them to have their backs in making sure they have the 
resources they need, and to have the resources in their 
professional development so they can be trained, so they can 
understand what they're dealing with here.
    We already have a vehicle where we could be doing much more 
of this by investing more in title II of the new education law 
which supports teacher development. Let's face it, Congress 
needs to fully fund the Individuals with Disabilities Education 
Act. Senator Mikulski raised this in her opening statement, and 
she's exactly right about this.
    Congress passed IDEA over 40 years ago to ensure that 
teachers would have the necessary resources to support students 
with disabilities. Although the program was designed to support 
40 percent of the additional cost of educating students with 
disabilities, Congress has repeatedly failed to meet this 
commitment. That's why I sponsored the IDEA Full Funding Act 
last Congress. I would increase IDEA funding over 10 years 
until Congress fully meets this commitment.
    I've sent letters to the Appropriations Committee about 
this. I intend to keep fighting for full IDEA funding until 
Congress lives up to our end of the bargain to support our kids 
with special needs and their teachers. Our children have 
already waited too long.
    What I hear today is about everyone has a job. Our kids 
work hard if they have the opportunity to do it. Our mothers 
work hard. Our teachers work hard. Our researchers work hard. 
It's time for Congress to work hard and do our part, too, and 
make sure you have the resources you need.
    Thank you for having this hearing. I really appreciate it, 
Senator Mikulski and Senator Cassidy. This is the kind of thing 
that we need to be doing to make Congress work for our 
children.
    Thank you.
    Senator Cassidy. Thank you.
    Again, thank you, Senator Mikulski.
    Thank you, to all of the witnesses.
    Thank you, to those in attendance.
    There will be a reception afterwards if people wish to stay 
and linger and have further conversation. I'd like the 
witnesses--if they have something they wish they'd had a chance 
to say but didn't have a chance to say, they may submit it in 
writing and have it as part of the record.
    The hearing record will remain open for 10 days for 
Senators to submit additional comments and any questions for 
the record Senators may have.
    Thank you for being here today. The committee will stand 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

         Response to Question of Senator Sanders by David Boies

    Question. Importance of Fully Funding IDEA--Today, our schools are 
being asked to do more with less. This is unfair for students, families 
and educators, especially in an environment of increased economic 
inequality where over half of all public school students come from low-
income families.
    States, local districts, and the Federal Government have a 
responsibility to ensure that our schools have the resources they need 
to provide every child an excellent education. Currently, over 30 
States are spending less per student than they did before the 
recession. Further, we have yet to make up even 15 percent of the over 
350,000 jobs cut by school districts due to the Great Recession. Making 
matters more challenging is the fact that schools are serving over 
800,000 more students than they did in the year 2008.
    We know that students with disabilities often need extra support. 
Congress passed the Individuals with Disabilities Education Act (IDEA) 
to ensure that students with disabilities had a civil right to 
education and that schools had the resources needed to meet the 
``excess costs'' of providing special education services. Today, the 
Federal Government is far short of its obligation to fully fund IDEA, 
contributing less than half of the promised 40 percent contribution 
necessary to cover the ``excess cost'' of educating students with 
disabilities.
    Mr. Boies, Ms. Hanrath, and Dr. Mahone, can you speak to the need 
of fully funding IDEA and how that would help schools better serve 
children with specific learning disabilities like dyslexia? 
Additionally, what extra challenges do low-income families face in 
trying to get the appropriate services for a child that has a 
disability? How can the Federal Government work to support low-income 
families that have a child with a specific learning disability like 
dyslexia and the public schools that serve these students?
    Answer. The good news about dyslexia is that we know how to 
identify it, and once we identify it (particularly when we identify it 
early) we know how to provide children with the help they need to 
enable them to overcome the debilitating effects that untreated 
dyslexia can have.
    Dyslexia, if properly identified and treated, need not limit a 
person's potential. Dyslexia makes it difficult for a student to learn 
to read. Because reading is the primary way students, particularly in 
grade school, acquire information, if dyslexia is not identified and 
treated it can prevent students from acquiring the information they 
need to succeed in school. They, and their teachers and parents, often 
confuse their difficulty in learning with a lack of intelligence. This 
often leads the student, and the student's teachers and even parents, 
to become discouraged, and to give up.
    Identifying dyslexia enables us to provide students with training 
that improves their reading skills and their ability to acquire 
information in alternative ways. This in turn encourages students, and 
their teachers and parents, to stay the course. In addition, 
understanding that the problem is a limited input disability, not any 
deficiency in processing, and that as students progress in life, 
processing skills (i.e., what a person does with the information the 
person has), becomes more and more important, helps everyone to avoid 
getting discouraged and giving up. In life, judgment, character, and 
commitment are far more important to a person's success that how fast a 
person reads; but without an understanding of what the problem is (and 
is not) too many people get discouraged and give up prematurely.
    Identifying dyslexia will also permit students to get the extra 
time on standardized tests that is required to prevent those tests from 
massively understating those students' knowledge and ability.
    An increasingly large percentage of dyslexic students from well-to-
do families, or who are fortunate to live in a particularly well-
financed school district, are today identified, treated, and enabled to 
reach their ultimate potential.
    The tragedy is that few children who come from economically 
disadvantaged homes and live in less well-financed school districts get 
the diagnosis and treatment they deserve. The help they need is 
practical. It is promised by the IDEA. But it is lost because of lack 
of funding.
    Education is a basic civil right. Indeed it is a right that is 
essential to making other civil rights effective. By depriving dyslexic 
children of early diagnosis and treatment, our educational system (and 
our society) deprives these children of this basic civil right--and of 
the promise made to them in IDEA.

  Response to Questions of Senator Sanders by Mark Mahone, Ph.D., ABPP

    First of all, I would like to thank the committee for the 
opportunity to provide testimony at the hearing on May 10, 2016, 
``Understanding Dyslexia: The Intersection of Scientific Research and 
Education.''
    In response to the followup questions posed by Senator Sanders, I 
am providing my responses below. The original questions are included 
for convenience.
                                 ______
                                 
    Question 1. Dr. Mahone, can you speak to the need of fully funding 
IDEA and how that would help schools better serve children with 
specific learning disabilities like dyslexia?
    Answer 1. The explicit intent of IDEA was to provide a free and 
appropriate education to all students, regardless of disability status. 
At the time that the original law (now IDEA) was passed, Congress 
committed to funding 40 percent of the excess costs of educating 
students with disabilities through grants to State education agencies 
(IDEA Part B). Presently, Federal appropriations only fund 
approximately 16 percent of these additional costs. While the 
proportion has increased slightly over the past 5 years, current levels 
remain far below the 40 percent goal.
    I believe that it is unfair for the Federal Government to require 
local education agencies to provide ``appropriate'' services to all 
students with disabilities, but not appropriate sufficient support for 
implementation of these services. To this end, I believe it is critical 
for the Federal Government to increase appropriations to support 
implementation of IDEA, with the ultimate goal of fully funding the 
commitment made in 1975.
    Recognizing that the number (and proportion) of all students who 
now qualify as students with disabilities has risen steadily since 
1975, the emphasis in Federal funding should be toward early (and 
accurate) identification of students with disabilities and evidence-
based intervention, with the goal of reducing the lifetime morbidity of 
these conditions and reducing their ultimate cost to the American 
education system. In other words, appropriations should target 
educational practices that have a high likelihood of reducing overall 
costs through better investment in screening and early intervention. 
These interventions will also increase the number of children who (for 
a variety of factors) are at risk for developing a disability, but 
because of better early intervention, do not go on to manifest the 
disorder, and are able to be fully educated in general education 
settings. This goal is especially true for children with specific 
learning disabilities such as dyslexia, as the methods for early 
screening and intervention, while well established in scientific 
literature, are not routinely translated into practice at the level of 
the local education agencies. This lack of translation leads to 
billions in extra educational and societal costs.

    Question 2. Additionally, what extra challenges do low-income 
families face in trying to get the appropriate services for a child 
that has a disability?
    Answer 2. Low-income families face a variety of additional 
challenges when attempting to secure appropriate services for a child 
with a disability. I will outline several of the key challenges below.

    <bullet> Children from low-income families are more likely to live 
in poverty, which carries an increased risk for reduced access to 
healthcare, poorer nutrition, increased exposure to violence, and 
chronic traumatic stress--all of which have a direct, negative impact 
of brain development and ultimate learning potential.
    <bullet> Many health insurance providers (including most of those 
contracted to provide medical insurance to low-income families) 
specifically preclude coverage for diagnostic assessments for autism 
spectrum disorders, specific learning disabilities, and intellectual 
disabilities, citing that these conditions are ``the responsibility of 
the educational system and not healthcare.'' This barrier effectively 
prevents effective access to early diagnostic assessment for these 
conditions, as schools do not routinely provide assessments until after 
a child has already demonstrated educational failure. Children from 
families with higher income are able to obtain these assessments 
privately on a fee-for-service basis--an option not available to low-
income families.
    <bullet> An alarming trend is that parents of students with 
disabilities who are not making progress now hire educational advocates 
to work with the local school system to obtain appropriate 
implementation of services. With few exceptions, this type of service 
is available only to families who can afford to hire these advocates. 
Low-income families are often not able to obtain such representation, 
and are left to advocate for themselves.

    Question 3. How can the Federal Government work to support low-
income families that have a child with a specific learning disability 
like dyslexia and the public schools that serve these students?
    Answer 3. The Federal Government has begun to take steps toward 
supporting children with learning disabilities. For example, the Every 
Student Succeeds Act (ESSA) authorized a first-of-its-kind 
Comprehensive Literacy Center for parents and educators to better 
support children who are at-risk for challenges with reading, writing 
and language processing due to dyslexia or other disabilities. The goal 
of the Center is identify, develop, and deliver information to 
educators and parents to better meet the needs of students who may 
struggle with reading, writing, language processing, comprehension or 
executive functioning due to a learning disability like dyslexia. In 
December 2015, Congress passed a budget allocating $1.5 million to the 
Comprehensive Literacy Center, which is expected that the Center will 
begin operating in 2017. While this is a start, it is unlikely to be 
sufficient to support the needs of low-income families. The achievement 
gap for students with disabilities is especially prominent in schools 
with limited resources, where the majority of the students come from 
low-income families and the need for services far surpasses available 
resources.
    In addition to the goal of fully funding IDEA, it is also 
imperative that all certified/licensed teachers (including both general 
education and special education teachers) have appropriate pre-service 
training in evidence-based methods for identification and intervention 
of learning disabilities. Management of this requirement at the State 
and local level has proved insufficient. At present, most teachers 
entering practice do not have the requisite expertise or experience to 
provide evidence-based intervention to students with dyslexia. The 
result is that identification and treatment are delayed (or absent), 
and the biological ``window'' for optimal intervention begins to close 
before care is received. This is the framework for the ``wait to fail'' 
model.
    The lack of training is not the fault of the teachers. It is 
typically not provided in pre-service/undergraduate training. Having a 
well-defined, Federal requirement for all licensed or certified 
teachers to have specific training and competence in identification and 
intervention with children with learning disabilities (who make up 
nearly half of all students with disabilities) is an initial step to 
ensuring reducing the achievement gap.

  Response to Additional Questions of Senator Sanders by Mark Mahone, 
                              Ph.D., ABPP

    Thank you for the opportunity to respond to these excellent 
additional questions. The questions and my responses are below.

    Question 1. When this committee considers the reauthorization of 
the Higher Education Act, what can we do to ensure that educators in-
training--both those seeking to be general and special educators--get 
the training they need to support students with specific learning 
disabilities like dyslexia?
    Answer 1. First, for pre-service teachers, one possibility is to 
set and enforce national criteria for pre-service teacher training that 
include required courses about developmental psychology, learner 
variability, differentiated instruction, and evidence-based 
interventions. There are established models for such national standards 
in fields such as medicine, psychology, social work, speech/language 
pathology, just to name a few. Pre-service teachers should also be 
taught to be wise and active consumers of published research. At 
present, this type of coursework is notably absent from the majority of 
undergraduate and graduate pre-service training programs. For general 
educators, many universities now require only one survey course 
addressing instruction for children with special education needs. Given 
that the majority of children with special education needs are taught 
primarily by general education teachers, this training is woefully 
inadequate.
    Second, as noted above, national standards need to place 
significantly greater emphasis in pre-service training on the area of 
learner variability, emphasizing principles of Universal Design for 
Learning (UDL). UDL is a framework to improve and optimize teaching and 
learning for all people, and is built on the idea that instructional 
flexibility is a ``standard,'' and that systems and all classrooms are 
designed to accommodate all children and all learners. My home State of 
Maryland has implemented into its State law that school districts will 
use and emphasize principles of UDL in their curricular design. It is 
time for this emphasis to be at a national level.
    Third, pre-service training emphasizes content knowledge; but there 
is insufficient emphasis on practical experience. As part of 
considerations for national standards for pre-service education, it is 
imperative that certified teachers entering the workforce have 
sufficient pre-service internship experience with high quality mentor 
teachers. To that end, teachers in training need quality experiential 
activities early in pre-service education, not simply during the final 
year before graduating. To accomplish this goal, there will also need 
to be national standards for mentor teachers who supervise internship 
experiences.

    Question 2. Furthermore, now that the Elementary and Secondary 
Education Act has been reauthorized, what can the U.S. Department of 
Education do to ensure that educators have ongoing and high-quality 
professional development that provides them with the tools to reach 
every student, including students with specific learning disabilities?
    Answer 2. For in-service teachers, it will be critical to fund 
grants for instructional coaching, and encourage State Departments of 
Education to use micro-credentialing in order to reward teachers for 
seeking ongoing professional training. For example, a common practice 
at the State level is to provide a certification (or credential) for 
``Reading.'' At initial glance, providing such a credential for those 
who teach reading seems like an excellent idea. Closer analysis reveals 
that such credentials are highly general, and may apply to the entire 
range of grades (pre-K-12). In other words, a teacher with a 
``Reading'' credential may have expertise in teaching middle school 
students to read better, but may not have training or experience in 
teaching primary grade students how to read initially. Individuals with 
the ``Reading'' credential may also have little training or experience 
in teaching dyslexic students. Conversely, the micro-credential allows 
for specific standards and credentialing in specific areas, such as 
teaching students with dyslexia, or early literacy instruction. With 
these micro-credentials, States and districts can better match teacher 
expertise to needs of students. The process also allows for highly 
targeted continuing education among experienced educators. This model, 
like that set forth for national teacher certification, is also used in 
fields such as medicine, psychology, and speech/language pathology--all 
of which has established criteria for specialties and subspecialties.
    Finally, continued and expanded funding should also be dedicated to 
improve the ``What Works Clearinghouse'' to be more accessible and user 
friendly for the front-line teacher. Created in 2002 by the U.S. 
Department of Education's Institute of Education Sciences, the What 
Works Clearinghouse provides educators, researchers, policymakers, and 
the public with a central source of scientific evidence on what works 
in education to improve student outcomes. Its goal is to help 
decisionmakers contend with differing messages from research studies 
and product offerings.

       Response to Questions of Senator Sanders by April Hanrath

    Question 1. Today, our schools are being asked to do more with 
less. This is unfair for students, families and educators, especially 
in an environment of increased economic inequality where over half of 
all public school students come from low-income families.
    States, local districts, and the Federal Government have a 
responsibility to ensure that our schools have the resources they need 
to provide every child an excellent education. Currently, over 30 
States are spending less per a student than they did before the 
recession. Further, we have yet to make up even 15 percent of the over 
350,000 jobs cut by school districts due to the Great Recession. Making 
matters more challenging is the fact that schools are serving over 
800,000 more students than they did in the year 2008.
    We know that students with disabilities often need extra support. 
Congress passed the Individuals with Disabilities Education Act (IDEA) 
to ensure that students with disabilities had a civil right to 
education and that schools had the resources needed to meet the 
``excess costs'' of providing special education services. Today, the 
Federal Government is far short of its obligation to fully fund IDEA, 
contributing less than half of the promised 40 percent contribution 
necessary to cover the ``excess cost'' of educating students with 
disabilities.
    Ms. Hanrath, can you speak to the need of fully funding IDEA and 
how that would help schools better serve children with specific 
learning disabilities like dyslexia? Additionally, what extra 
challenges do low-income families face in trying to get the appropriate 
services for a child that has a disability? How can the Federal 
Government work to support low-income families that have a child with a 
specific learning disability like dyslexia and the public schools that 
serve these students?
    Ms. Hanrath, can you speak to the need of fully funding IDEA and 
how that would help schools better serve children with specific 
learning disabilities like dyslexia?
    Answer 1. I am very proud of my daughter, Jocelyn, who just 
graduated high school with a 3.7 GPA and will begin studying sports 
management at Highline College in the fall. Jocelyn has learning 
disabilities and struggled throughout elementary school with reading, 
writing, test anxiety, executive functioning, and attention issues. 
Throughout elementary school, Jocelyn had several first-year teachers 
who thought she was simply unintelligent or a behavior problem. I knew 
that wasn't true. At the end of fourth grade, I had Jocelyn evaluated 
by a neuropsychologist and her school finally recognized that she had 
dyslexia and dysgraphia and provided her the rights and services she is 
entitled to under IDEA.
    Starting in fifth grade and continuing throughout school, Jocelyn 
received extra time, oral testing, and the right to use a computer to 
type assignments. With the help of these accommodations and an amazing 
special education teacher who tutored and advocated for my daughter, 
Jocelyn was able to learn in general education classes with her 
friends. She even enrolled in AP and honors classes in high school. My 
family is not alone. There are 2.4 million students who, like Jocelyn, 
have specific learning disabilities and the majority of these students 
want to go to college.
    The President's fiscal year 2017 request of $11,912.85 million for 
IDEA grants to States would freeze funding at the fiscal year 2016 
level, which is only 16 percent of the total per child cost. IDEA is 
critical to ensuring that all students are able to achieve their goals. 
Special education services are a civil right accessed by 6.7 million 
students with disabilities, and the number of students who need 
services does not decrease when Federal funding does. In order to 
ensure students and schools have the necessary resources, we need to 
fully fund IDEA State grants at the 40 percent level that Congress 
promised in 1975, and substantially invest in all IDEA programs.

    Question 2. Additionally, what extra challenges do low-income 
families face in trying to get the appropriate services for a child 
that has a disability?
    Answer 2. When Jocelyn was in fourth grade, the school tested her 
for special education the same week that her grandmother died, and 
reached the false conclusion that Jocelyn would never succeed in school 
because she just wasn't smart. I knew that my daughter struggled in 
school, but was very bright so I found a neuropsychologist and paid to 
have the testing re-done. The neuropsychologist diagnosed Jocelyn with 
dyslexia and other learning disabilities. I am a single mother and a 
small business owner and was fortunate enough to have the money to pay 
for Jocelyn's testing, but I was not wealthy enough to pay for daily 
tutors so I had to rely on the public school system, but mostly on 
myself.
    Families living in poverty may not have the money to seek private 
help, or the time to educate themselves on learning disabilities and 
advocate for their child. This is especially disconcerting considering 
the prevalence rate for learning disabilities is higher for children 
living in poverty. Overall, students with learning disabilities are 
more likely to be boys, living in poverty, in foster care, homeless, 
African American, or Latino. Although learning disabilities do not 
correlate with intelligence, one-third of students with learning 
disabilities have been held back in a grade at least once, and students 
with disabilities--particularly African American and Latino boys--
experience higher rates of school disciplinary actions, higher dropout 
rates, and lower graduation rates. For adults, the prevalence rate for 
learning disabilities is almost twice as high for individuals living in 
poverty compared to individuals above the poverty line, and only 46 
percent of working age adults with learning disabilities are in the 
labor force. Yet, students with learning disabilities are enrolling in 
postsecondary education at the same rate as the general education 
population and express similar goals for college, employment, and life.
    I was lucky that my daughter is a talented student-athlete so her 
college made it easy for her to get disability services using her high 
school IEP, and she earned a scholarship from the National Center for 
Learning Disabilities. This is not the case for most students with 
learning disabilities. Often, colleges make students pay for a new 
evaluation in order to receive services. Because these tests are so 
expensive, many students are just not able to get the supports they 
need in college. Even if the college recognizes that a student has a 
disability, the family may still have to pay extra, on top of regular 
tuition, to actually access services.

    Question 3. How can the Federal Government work to support low-
income families that have a child with a specific learning disability 
like dyslexia and the public schools that serve these students?
    Answer 3. The biggest challenge that Jocelyn and I faced was the 
misconception that students with learning disabilities cannot learn. 
We're not alone. Seven out of 10 parents, educators, and members of the 
general public incorrectly associate learning disabilities with 
intellectual disabilities and autism, and half think that learning 
disabilities are the result of laziness. The vast majority of students 
like my daughter spend 80 percent or more of their school day learning 
alongside their peers who do not have learning disabilities. Research 
shows that children who spend more time in general education classrooms 
have improved outcomes. The practice of inclusion also reflects a core 
requirement of IDEA.
    This means that it is critical for general education teachers to be 
trained on learning disabilities so that they can identify students as 
early as possible, hold them to high expectations, and address their 
unique learning needs. My daughter is proof that when you hold students 
with dyslexia, and other specific learning disabilities, to high 
standards and support them with the tools they need to succeed, they 
are able to fulfill their goals and dreams. To this end, the Federal 
Government can support low-income families that have a child with a 
specific learning disability by ensuring that schools are held 
accountable for all students' academic outcomes.
    The Federal Government can support public schools by investing in 
IDEA, the National Center for Special Education Research (NCSER), and 
in programs designed to support all students, including high quality 
early learning programs, teacher quality grants, the Comprehensive 
Literacy Development grants, and evidence-based initiatives. As the 
Federal Government works to reauthorize the Higher Education 
Opportunity Act, streamlining and simplifying the documentation 
requirements for obtaining disability services will ensure that every 
student, regardless of her parents' income, is able to receive the 
supports they need to thrive in college.

   Response to Questions of Senator Casey by Guinevere Eden, D.Phil.

    Question 1. Dr. Eden, I know the majority of your research focuses 
on K-12 age children, but in your experience, how does support for 
students with dyslexia and other learning disabilities change when 
those students attend college?
    Answer 1. While younger children with dyslexia struggle primarily 
with difficulties in decoding, high school and college-age students 
with dyslexia often struggle with reading fluency and reading 
comprehension, and also have difficulties retaining what they have 
read. Often they also struggle with spelling accuracy, slower 
handwriting fluency, limited writing vocabulary, or lower working 
memory capacity, which in turn can lead to difficulties with writing. 
This means that although these students may have the same ideas as 
their non-dyslexic peers, college students with dyslexia are at a 
disadvantage when it comes to writing academic essays. The amount of 
reading and writing is significantly greater than what students 
experienced in high school, further compounding the difficulties in 
making the transition from high school to college. For those students 
who also have Attention Deficit Hyperactivity Disorder (ADHD), the 
challenge of sustaining concentration and sticking with a storyline may 
be especially difficult.
    While dyslexia persists into adulthood, the support for students 
with dyslexia and other learning disabilities changes when those 
students attend college. The Individuals with Disabilities Education 
Act (IDEA), which applies to K-12, no longer applies in college, and as 
such, special accommodations, individual instruction, and alternative 
testing are no longer in place. There are no Individual Education Plans 
(IEPs). Instead, the Americans with Disabilities Act Amendments Act 
(ADAAA) applies, and while this can provide a student with 
accommodations, the student will no longer have access to the range of 
services that was available while in grades K-12. Importantly, the 
college student with learning disability has to make a concerted effort 
to obtain these accommodations, which requires identifying the 
appropriate office at the college, submitting the necessary materials 
(usually a professional evaluation), and from then onwards activating 
and re-activating the support services and/or accommodations available 
to them throughout their studies. The degree to which a student seeks 
the help to which they are entitled will vary greatly and depend on 
their own advocacy skills. The transition to the college comes with 
significant change, including a reduction/absence of prior support 
mechanisms (parents and teachers who previously advocated on their 
behalf) combined with a new perspective on a personal identity formed 
within this new environment, which may cause the student to disregard 
their learning disability. Critically, the student has to secure the 
services because the college does not have a mechanism by which to 
identify students with learning disabilities. The number of college 
students with learning disabilities has been increasing, and it is 
therefore important that these students are given the tools that allow 
them to select the college that suits them best and to advocate for 
their academic and other needs throughout their studies.
    The advice that students with dyslexia and other learning 
disabilities receive at college will vary depending on the institution. 
Some may provide input to help students identify courses that are more 
compatible with their reading and writing challenges or to substitute 
required courses. There are some colleges that specialize in teaching 
students with dyslexia, such as Landmark College in Vermont. The choice 
of the college and the efforts made by the student to attain the 
necessary accommodations and support once they attend that college will 
play a critical role in their ultimate success. Taken together, the 
support for students with dyslexia and other learning disabilities 
changes a great deal when those students attend college, and the 
experiences will vary widely depending on the student and the college.
                                sources
Connelly, V., Campbell, S., MacLean, M., & Barnes, J. (2006) 
    Contribution of lower order skills to the written composition of 
    college students with and without dyslexia. Developmental 
    Neuropsychology, 29:1, 175-196. Available at http://dx.doi
    .org/10.1207/s15326942dn2901_9.
Sterling, C.M., Farmer, M., Riddick, B., Morgan, S., & Matthews, C. 
    (1997). Adult dyslexic writing. Dyslexia, 4, 1-15.
York, J. Advice for the College Student. Resource Office on 
    Disabilities, Yale University. Available at http://
    dyslexia.yale.edu/Stu_college.html.

    Question 2. As we think about how best to support students during 
the implementation of the Every Student Succeeds Act do students who 
have dyslexia also struggle with other skills (in addition to reading) 
as well? What does brain research show about the relationship between 
dyslexia and other learning disabilities?
    Answer 2. Students who have dyslexia often also struggle with other 
skills. For example, dyslexia (also referred to as reading disability) 
often co-occurs with dyscalculia (also referred to as math disability). 
This co-occurrence (referred to as ``co-morbidity'') is significantly 
higher than what would be expected by chance, leading researchers to 
study the cause of their connection. It has been shown that 
difficulties in both reading and math may arise from a common weakness 
in working memory, processing speed, and verbal comprehension. Studies 
have also shown that the same phonological processing skills that are 
needed to succeed in reading are also needed to succeed in math. That 
is, these skills are important for successful reading and math. 
Further, the severity of difficulties in these areas and their 
combination will likely influence the manifestations of a child's 
reading and math impairments. As such, researchers are viewing reading 
disability and math disability not so much as discrete groups, but 
rather as multi-dimensional, viewing performance on these skills along 
a number of continua. From an educational and policy perspective, this 
means that a child may appear to be impaired on reading using a cut 
point on a given standardized test of reading, yet the same child may 
also have difficulty in math, but this weakness may not have been 
tested sufficiently, or the child may fall just short of the threshold 
used to determine the disability. Implementation of the Every Student 
Succeeds Act should therefore take into account that when difficulties 
are identified in reading, the chances are high that there are 
weaknesses in math even though these may lie below the surface. 
Interventions need to be identified in consideration of all of these 
difficulties.
    Results from brain imaging research are consistent with this 
approach, showing that children diagnosed with dyslexia have less brain 
activity in left hemisphere brain regions associated with reading, and 
children with dyscalculia have less brain activity in right hemisphere 
brain regions associated with math. However, children with dyslexia 
also underactivate the left hemisphere for some arithmetic procedures, 
even though they do not meet a diagnosis of dyscalculia. This means 
that while they did not exhibit obvious difficulties in math on 
behavioral evaluation, especially in the context of their severe 
reading problems, they nevertheless show signs of aberrant brain 
function during some math tasks. Neuroscientists are also investigating 
brain regions that have a more general role, such as supporting working 
memory, that are critical to both math and reading, and that may be 
contributing to the difficulties more generally, rather than the brain 
regions associated specifically with just reading or math. The outcome 
of this work is likely to aid in determining avenues for intervention 
for children with these learning disabilities.
                                sources
Ashkenazi, S., Black, J.M., Abrams, D.A., Hoeft, F., & Menon, V. 
    (2013). Neurobiological underpinnings of math and reading learning 
    disabilities. Journal of Learning Disabilities, 46(6), 549-569. 
    Available at http://doi.org/10.1177/0022219413483174.
Branum-Martin, L., Fletcher, J.M., & Stuebing, K.K. (2013). 
    Classification and identification of reading and math disabilities: 
    the special case of comorbidity. Journal of Learning Disabilities, 
    46(6), 490-499. Available at http://doi.org/10.1177/
    0022219412468767.
Evans, T.M., Flowers, D.L., Napoliello, E.M., Olulade, O.A., & Eden, 
    G.F. (2014). The functional anatomy of single-digit arithmetic in 
    children with developmental dyslexia. Neuroimage, 101, 644-652. 
    Available at http://doi.org/10.1016/j.neuro
    image.2014.07.028.
Willcutt, E.G., Petrill, S.A., Wu, S., Boada, R., Defries, J.C., Olson, 
    R.K., & Pennington, B.F. (2013). Comorbidity between reading 
    disability and math disability: concurrent psychopathology, 
    functional impairment, and neuropsychological functioning. Journal 
    of Learning Disabilities, 46(6), 500-516. Available at http://
    doi.org/10.1177/0022219413477476.

    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                                  [all]

      
</pre></body></html>
